<html>
<title> - LESSONS LEARNED AND GRADING GOALS: THE DEPARTMENT OF HOMELAND SECURITY OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
LESSONS LEARNED AND GRADING GOALS: THE DEPARTMENT OF HOMELAND SECURITY 
                                OF 2007

=======================================================================

                              FULL HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2007

                               __________

                            Serial No. 110-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
35-267                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                      Roline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    28
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    37
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    32
The Honorable David Davis, a Representative in Congress From the 
  State of Tennessee.............................................    31
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    22
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North carolina....................................    29
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    43
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    26
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    40
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State.................................................    38
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................     2
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................    24
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    20
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    18
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida......................................    35

                                Witness

The Honorable Michael P. Jackson, Deputy Secretary, Department of 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6


                      LESSONS LEARNED AND GRADING
                        GOALS: THE DEPARTMENT OF
                       HOMELAND SECURITY OF 2007

                              ----------                              


                      Thursday, February 15, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:10 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Dicks, Harman, 
Jackson Lee, Etheridge, Langevin, Cuellar, Carney, Clarke, 
Green, Permutter, Lungren, Rogers, Reichert, Dent, Brown-Waite, 
Bilirakis, and Davis of Tennessee.
    Chairman Thompson. [Presiding.] The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony on 
lessons learned and grading goals for the Department of 
Homeland Security in 2007.
    Thank you for being here, Deputy Secretary Jackson.
    Last week, the committee had the opportunity to hear 
Secretary Chertoff present his budget plan for fiscal year 
2008. He painted the picture of what the department wanted to 
be in 2 years and what resources it needed to get there.
    Prior to our hearing with Mr. Chertoff, we had the 
opportunity to revisit the department's enduring challenges 
with two distinguished watchdogs, the comptroller general and 
the department's own inspector general.
    In the last week, we have been presented with two starkly 
different images of the department. One is a rosy scenario and 
the other is a dire portrait.
    What we need from you today is to hear your vision of how 
DHS can become the picture of health. Specifically, we invited 
you here today to tell us where the department is with respect 
to management, personnel and assets.
    When the book is closed on 2007, what will be written about 
the department's progress with respect to addressing the 
lessons learned from the abysmal response to Hurricane Katrina; 
completing the corrective action plan needed to get DHS off 
GAO's high-risk list; improving DHS's ability to get a clean 
financial statement; enhancing the department's efforts to 
secure rail; and hiring and deploying personnel to patrol our 
borders, manage procurement, and prepare for terrorism and 
other disasters?
    As the department's chief operating officer, you should be 
able to provide us with specific benchmarks and goals for this 
calendar year. I am particularly interested in morale of the 
department. It is the unseen hand in every situation and can 
undermine every plan and program you devise.
    You are aware of the report that came out, we have had some 
discussion about it, and I have looked at some of your memos to 
staff in reference to that. But I would be, along with other 
members of the committee, interested in learning how that is 
progressing.
    Basically, Mr. Jackson, it is important, I think, for you 
to share where we are with the department. And with that, I 
thank you for being here.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    Last Week, this Committee had the opportunity to hear Secretary 
Chertoff present his budget plan for Fiscal Year 2008. The Secretary 
painted a picture of what the Department wants to be in two years and 
what resources it would need to get there.
    Prior to our hearing with Secretary Chertoff, we had the 
opportunity to revisit the Department's enduring challenges with two 
distinguished watchdogs--the Comptroller General of the United States, 
Mr. Walker, and the Department's Inspector General, Mr. Skinner.
    Over the past week, this Committee has been presented with two 
starkly different images of the Department. One is a rosy scenario and 
the other is a dire portrait. Mr. Jackson, what we need from you today 
is to hear your vision of how DHS can become more of a picture of 
health. More specifically, we invited you here today to tell us where 
the Department is today with respect to management, personnel and 
assets.
    When the book is closed on 2007, what will be written about the 
Department's progress in addressing the lessons learned from the 
abysmal response to Hurricane Katrina; completing the corrective action 
plan needed to get off GAO's ``High Risk'' list, improving the DHS' 
ability to get a clean financial statement; enhancing the Department's 
efforts to secure rail; and hiring and deploying personnel to patrol 
our borders, manage procurement, and prepare for terrorism and other 
disasters?
    As the Department's chief operating officer, you should be able to 
provide us with specific benchmarks and goals for this calendar year. I 
am particularly interested in morale at the Department. It is the 
unseen hand in every situation and can undermine every plan and program 
you devise. I have seen your January 30th message to DHS employees 
about the OPM employee job satisfaction survey. In it, you describe 
DHS' last-place ranking in nearly every category as a `clear and 
jolting message.' You go on to say that both you and Secretary Chertoff 
`discussed these results with concern' and you pledged to `improve job 
satisfaction for the DHS team.'
    What I need to know is how do you plan to fulfill this pledge and 
when will you begin the implementation process? As you know, time is of 
the essence here. The Federal workforce is graying and attrition 
permeates your Department. You must put in place strategies to turn 
things around and convince the men and women of DHS that the conditions 
will improve.
    This past week, the House voted unanimously on a resolution that 
pays tribute to the Department's personnel. We are looking to you to 
honor them with your actions and make things right.

    Mr. Thompson. The chair now recognizes Mr. Lungren, who 
will be acting in Mr. King's stead for this hearing. The 
gentleman from California?
    Mr. Lungren. Thank you very much, Mr. Chairman, and thank 
you for having this hearing.
    Mr. Jackson, we on this side welcome you here for your 
testimony. I am reminded when I returned to Congress, someone 
asked me what is the difference between being a member of 
Congress and being a member of the executive branch, as I was 
back in California.
    And I said the major difference is now if I finish a 
speech, I don't have a reporter come up to me and ask me about 
something one of my 5,000 employees has done that I know 
nothing about, and I am expected to respond on the spot.
    You have far more than 5,000 employees. You are in the 
position, along with the secretary and several others, of 
managing a large department, the largest new department, 
reorganized department, in the history of the nation since the 
Department of Defense.
    My own personal view is we have a good management team over 
there and I hope you are as dissatisfied with some of the 
shortcomings as we are.
    And the real question for us is not whether there are 
shortcomings, because that is always the case, but it would 
particularly be necessary or expected in an organization as 
massive as yours--and as the comptroller general suggested, 
there is a 6-year to 10-year window usually when you bring 
disparate groups together in a merger such as this.
    But that does not diminish the intensity of our feeling 
that we have to get things done right and done right as soon as 
possible.
    So I hope you would not view this as a hearing which is an 
attempt to identify scapegoats but rather as a hearing to have 
a gauge of where we are on that journey to finally getting a 
completed whole in the department that you are in at the 
present time.
    There is vast agreement as to the shortcomings with respect 
to Katrina, perhaps with the exception of the magnificent job 
done by the Coast Guard, which is an element of your 
department. And I think we really want to know what lessons 
have been learned from those failures and those shortcomings.
    And as we in Congress have shifted our focus from time to 
time from perhaps a predominant view of aviation security to 
the exclusion of others, I think we saw some of that in your 
department as well.
    So we would be also looking to see whether you have been 
able to spread the sense of priority across your department in 
a meaningful way and where you need to put and we need to help 
you put a greater emphasis as we go forward.
    So with those words, I again thank you for your service, 
thank you for appearing before us, and hope that at the end of 
this hearing we will have a better idea of how well we are 
along that journey.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you very much, Mr. Lungren.
    Other members of the committee are reminded that, under the 
committee rule, opening statements may be submitted for the 
record.
    Again, I welcome our witness today, Deputy Secretary 
Jackson, who serves as the second-in-command at the Department 
of Homeland Security since March of 2005.
    As deputy secretary, Mr. Jackson essentially serves as the 
department's chief operating officer, and he is responsible for 
managing the day-to-day operations of the department. He 
oversees activities of the department's seven operating 
components that are responsible for such critical homeland 
security missions as preparedness, information sharing, border 
security and emergency management.
    With nearly 2 years at DHS under your belt, we look forward 
to hearing about the hard lessons you learned from the response 
to Hurricanes Katrina and Rita as well as the reorganization of 
the department during your tenure.
    Without objection, the witness's full statement will be 
inserted into the record.
    However, Mr. Secretary, we have talked about the 48-hour 
deadline for submission of testimony to the committee. It is 
important that we follow that. It is important that in the 
future please pass that on to everybody below you that we plan 
to enforce it very vigorously. And we would like our members to 
have enough time to review testimony so that they and their 
staffs can adequately address the questions.
    We will allow you 5 minutes to summarize your testimony, 
and then we will start with our questions. Thank you for being 
here.

    STATEMENT OF HON. MICHAEL P. JACKSON, DEPUTY SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jackson. Mr. Chairman, thank you for having me here 
today, and thanks for the spirit of cooperation that you have 
brought to working with the department and our colleagues on 
this committee.
    We are on the journey that Congressman Lungren mentions, 
and I am happy today to have a chance to explain where that 
journey is headed, how we are doing some things better than 
others.
    I won't try to paint everything through rose-colored 
glasses, but I will tell you that we are making some 
substantial progress which I would like to share with you. And 
I would also like to share with you where some of our 
challenges are.
    I won't try to repeat or to walk through the full text of 
my prepared remarks.
    And thank you, Mr. Chairman, for including them in the 
record and accept my apology for them not arriving sooner than 
they did. We will definitely make sure that happens next time.
    I would like to just step back and say just a word about 
the core strength of the department, and this I would like to 
start with a thank you.
    Mr. Chairman, you and your members on this committee 
sponsored a resolution to praise the employees of the 
department this week, and I just have to tell you that that was 
a wonderfully generous and fair and apt thing for you to do. It 
was a very, very well received thing inside of our department.
    I think that we have heroes on the line every day doing 
phenomenal work at the border, in airports, jumping out of 
airplanes to save people's lives with the Coast Guard. And your 
recognition of their service meant an awful lot to our 
department.
    The secretary did talk about the five priorities that he 
has for the department, and so in the question of where we are 
going, there are these five strategic objectives which the 
written testimony that I have submitted encapsulates and 
unpacks.
    But it is to protect our nation from dangerous people, from 
dangerous goods, to protect our critical infrastructure, to 
build a nimble and effective emergency response system that has 
a culture of preparedness embedded not just in our work but in 
the work that we share with our state and local partners in 
emergency preparedness, and then finally, to take the theme 
that you, Mr. Chairman, started with of management discipline, 
management work that has to be done to knit together this 
department in an effective and responsible manner.
    So these are the core organizing principles for us of the 
work in the department and our main priorities. It is also 
possible to look from different perspectives on how to get your 
arms around DHS, and I think at one level that is what this 
conversation is about, and I look forward to the questions that 
will unpack that further.
    But trying to get your arms around DHS you can do by 
working the org chart approach. We had a little chance to talk 
about the org chart earlier.
    You can look at our strategic planning and--I call it the 
bones and muscles approach--the architecture of how we hang 
together plans in aviation, and surface transportation, and 
biological attacks, and the congressional statutes that have 
given us strategic counsel, and then how we move through those.
    It is one way of thinking about and aggregating an approach 
to understanding where we are and where we are headed.
    Another one is to think about the pure risk-based approach, 
and this is what I call in the testimony the dashboard 
navigator approach, which is to look at the ways that either 
terrorists or natural events attack the country and then look 
at the locus of those attacks, find the intersection points, 
and then unpack how hard a job we have, how well we are doing, 
what our protect and prevent strategy is, and what our respond 
and recover strategy is.
    So if you take a means of attack like MANPADS, a shoulder-
fired missile with--intersects with commercial airliner, we 
have to ask the question how big a threat is this and how 
consequential a threat is this. And then we have to say--and I 
think that is not an inconsequential one.
    Then we have to say we have these two plans of protect and 
prevent--how do you stop that from happening? And then the 
respond and recover plan--how do you recover?
    So if we look at the whole range of natural disasters and 
terrorist attacks--nuclear, chemical, biological, et cetera--
and our range of 17 critical infrastructures, in one way this 
is an organizing scorecard for us to understand how our 
planning process is doing, how well our organization is decked 
to produce responses in these missions.
    The five principles that we have talked about really 
aggregate all of this, the architectural way of looking at the 
department through the org charts, the risk-based work of 
trying to triage among threats and to spend our crucial time 
and dollars, and also the work that we do in trying to bring 
discipline to it through things like the Maritime Domain 
Awareness Program, the Aviation Security Program, et cetera. So 
these are tools for us.
    Let me just end by saying we have made a lot of progress at 
DHS. I don't want people to walk away feeling like that there 
is, you know, an abysmal amount of work and no progress.
    I feel just the opposite. I see a huge amount of progress 
in the last 2 years. But we have much, much work to do ahead of 
us. And I think that we have to do this in partnership with 
this committee, with the Congress, to make sure that we are 
successful in the work.
    We have a strong team, and we are committed to unpack for 
you on an ongoing basis where we are, how we are going to 
measure our performance, to unpack each part of the mission and 
to help you understand with clarity where we are.
    So perhaps with that I could stop and respond to questions 
and have a dialogue with you about where we are going.
    [The statement of Mr. Jackson follows:]

    Prepared Statement of the Honorable Michael P. Jackson, Deputy 
               Security, Department of Homeland Security

    Mr. Chairman, Congressman King and Members of the Committee, I am 
pleased to testify before the Committee on Homeland Security to discuss 
``lessons learned and grading goals'' at the Department of Homeland 
Security.
    DHS is soon approaching its fourth anniversary as a department, and 
I my second year as Deputy Secretary and the Department's chief 
operating officer. DHS has learned much about how to grow and 
strengthen this new and vital organization, not the least through 
lessons derived from the Hurricane Katrina response and recovery. 
Secretary Chertoff has set five core goals to drive the Department 
during the next two years. They are:
        <bullet> Protect our nation from dangerous people
        <bullet> Protect our nation from dangerous goods
        <bullet> Protect our critical infrastructure
        <bullet> Build a nimble, effective emergency response system 
        and a culture of preparedness
        <bullet> Strengthen and unify DHS operations and management.
    Together, these five objectives subsume a series of actions that 
reflect much of DHS's mission, and our highest priorities. In each 
area, we strive to set realistic, measurable goals for success. It is a 
truism, but nonetheless true, that we cannot hope to eliminate all 
risk--whether from natural disaster or terrorist attack. Rather, we 
must daily go about our business with a sense of urgency and discipline 
to reduce risk, and balance precious investments of time, energy and 
dollars to achieve the highest return in our work to protect the 
homeland.
    In this effort, I am blessed to count as DHS colleagues some 
208,000 extraordinarily dedicated men and women. Mr. Chairman and 
Congressman King, I was touched by your public statements of support 
and the House Resolution you sponsored earlier this week for these DHS 
employees. I thank you and the Members of this Committee for that most 
thoughtful gesture.
    It is fair to say that DHS has a broad and complex mission. At the 
Department, we have responsibility for executing missions for all-
hazards incidents, and many are managed through the Department's seven 
core operating components. In addition, we have a broader role to 
define and support an overall preparedness architecture for the federal 
government in homeland security. Here, we partner and rely upon many 
partners--from the FBI to the Department of Transportation; from the 
Department of State to the Department of Defense. Our homeland security 
strategy as a nation embraces virtually all of the federal family in 
one way or another with critical assignments.
    Likewise, supporting the homeland security mission of state, local 
and tribal leaders and that of the private sector is integral to our 
operations. Added to that is an extensive overseas employee footprint, 
and, together with the State Department and our embassies overseas, our 
work with many foreign government and organizations to align, as much 
as possible, homeland security strategies internationally. In short, 
DHS's complex mission supports and is supported by a vast array of 
partners.
    I appreciate fully that DHS's partnership very much includes this 
Committee in particular, as well as our other colleagues in the House 
and in the Senate. I'd like today to identify at least several ways of 
getting one's arms around DHS's mission and performance.
    One approach is to unpack our organization chart, understanding 
fully and completely the responsibilities, budget and highest 
priorities of each organizational unit. I recently enjoyed an informal 
opportunity to discuss the Department in this way with this Committee's 
members.
    Another approach is to focus on homeland security by focusing on 
the various strategic plans, Presidential directives, interagency and 
intergovernmental agreements and legislative mandates that animate and 
integrate so much of our work at DHS. Call this the bone-and-muscle 
perspective. In this sense, we could talk about the National 
Preparedness Goal, its fifteen planning scenarios and the associated 
target capabilities that we seek to support and grow at the state and 
local level through DHS grants, training and exercises. We could unpack 
the National Infrastructure Protection Plan, its sector specific plans 
or detailed strategies such as the Pandemic Influenza Plan or the 
President's directives on infrastructure protection (HSPD-7) or common 
identification standards (HSPD-12).
    This approach underscores that much of DHS's work efforts in 
securing the homeland requires us to integrate and coordinate assets 
across federal, state, tribal and local governments in order to meet 
the President's directives. For example, we have realigned our 
department in the area of biodefense (HSPD-10), as we coordinate the 
actions of our various parts of DHS with those of the Departments of 
Health and Human Services and Defense. Our responsibilities in food and 
agro-defense drive close coordination with our own critical 
infrastructure partners in the food sector and with the Department of 
Agriculture, the Food and Drug Administration and the Centers for 
Disease Control.
    Goals set by core homeland security legislation, such as the 
recently passed SAFE Port Act, tie to the federal maritime domain 
awareness strategy and specific investments in programs such as Secure 
Freight. Taken together, these strategic goals, plans and tools drive 
prioritization of investments for homeland security. They drive our 
everyday work. They are the bones on which we grow the muscle that 
defines and makes possible DHS's work.
    A third approach is what I call the dashboard navigator. In this 
way, we focus first on specific threats in order to structure an 
understanding of our mission. We assess the manner and extent to which 
DHS must cover the full range of homeland threats (e.g., nuclear, 
chemical, biological, natural disasters, etc.) and the locus or 
``attack vector'' of such potential attacks (e.g., large public 
gatherings and the 17 critical infrastructure asset sets). In this way, 
one must think of a specific means of attack (e.g., a shoulder-fired 
rocket or MANPAD) hypothetically aligned with a specific attack vector, 
such as a commercial airliner.
    Once you align these two variables, there are two sets of issues 
that must be assessed: (a) severity of risk; and (b) our plans (public 
and private) to reduce the risk as much as practical. The latter 
question, in turn, yields two distinct plans: (a) a protect and prevent 
plan; and (b) a response and recovery plan.
    Each of these two areas of planning for the range of threats is 
ripe for discussion and analysis. Each benefits from lessons learned 
since 9/11 and the results of our protect/prevent and respond/recover 
plans must be measured carefully, graded dispassionately. In sum, the 
dashboard navigator discipline, the bones-and-muscle approach or the 
organizational structure analysis are each viable approaches to unpack 
what is being done and what must be done at DHS.
    At this hearing, Members may wish to touch on parts of DHS's work 
by means of these three approaches. For my prepared remarks, however, I 
have tried to organize an overview of DHS priorities and mission 
activity around the Secretary's five core priorities.

Protect our Nation from Dangerous People

    The Department's continuing efforts to protect our nation from 
dangerous people consist of border enforcement, interior enforcement 
and immigration and screening programs.
    Border Enforcement. In support of the President's initiative to 
secure the border, 6,000 National Guard personnel were deployed to the 
Southwest border as part of Operation Jump Start. Furthermore, the 
Department ended the practice of ``catch and release'' along the 
Southern and Northern borders as part of the Secure Border Initiative. 
This accomplishment is one that many considered unlikely in 2005 when 
only approximately 34 percent of apprehended non-Mexican aliens were 
detained.
    Also, on the northern border, CBP Air and Marine opened its third 
of five Air Branches planned for that border, adding the Great Falls 
Air Branch in Montana to ones in Bellingham, Washington, and 
Plattsburgh, New York. We believe the combined effect of these actions 
along with continued vigorous CBP enforcement created a strong 
deterrence effect that led to a marked decrease in land apprehensions 
in FY 2006.
    Over the next two years, the SBInet program will begin deploying an 
integrated infrastructure and technology solutions for effective 
control of the border that will include fencing in areas where it makes 
sense, vehicle barriers in other areas, and a virtual fence of radars 
and cameras in others. This selective application of technology that 
best meets the conditions along each part of the border will help 
detect and apprehend illegal aliens who cross into the United States 
while doing so in the most efficient way possible. Keeping SBInet on 
time and on budget will be a key focus of my attention.
    We will also transition from the resources provided by the National 
Guard to internal capabilities by the hiring of 6,000 additional Border 
Patrol officers as well as constructing the facilities to house the 
agents, hiring the support personnel, and deploying the equipment 
necessary to gain operational control of our borders. This will bring 
the total number of Border Patrol agents to over 18,000 at the end of 
2008, by which time Operation Jump Start will have wound down and the 
Guard will have been phased out from these border activities.

    Interior Enforcement. In FY 2006, more than 4,300 arrests and 
apprehensions were made in ICE worksite enforcement cases, more than 
seven times the arrests and apprehensions in 2002, the last full year 
of operations for the U.S. Immigration and Naturalization Service. ICE 
completed 5,956 compliance enforcement investigations resulting in the 
administrative arrest of 1,710 overstay and status violators, a 75 
percent increase over FY 2005. In addition, ICE removed over 186,000 
illegal aliens from the country in FY 2006, a 10 percent increase over 
the number of removals during the prior fiscal year.
    We plan to add 22 ICE Criminal Alien Program teams in FY 2007 to 
remove incarcerated criminal aliens so they are not released back into 
the general population and potentially threaten the safety of the 
American public. We will also continue to assist U.S. employers in 
complying with immigration laws by encouraging them to verify the work 
eligibility of their new employees by using Basic Pilot, an employment 
verification program.

    Identity Screening Programs. The Department has or is standing up a 
number of identity screening programs that are key to improving the 
security of the nation, including the Western Hemisphere Travel 
Initiative (WHTI), the REAL ID program, US-VISIT, the Transportation 
Worker Identification Credential (TWIC) and Secure Flight. In designing 
all of these programs we make preservation of individual privacy rights 
an imperative.
    WHTI document requirements have been instituted at all air ports of 
entry. This year we will focus on the development and installation of 
technical infrastructure to enable implementation of WHTI at land ports 
of entry in 2008. With a significant IT investment planned in 2008, we 
will ensure that Customs and Border Protection officers have the 
technology to verify rapidly that all people arriving at U.S. ports of 
entry have a valid and appropriate means of identification and to 
process visitors in an efficient manner. DHS plans soon to propose REAL 
ID regulations that create minimum standards for state driver's 
licenses and identification cards that federal agencies can accept for 
official purposes after May 11, 2008.
    US-VISIT's biometric program is designed to keep terrorists and 
other criminals out of our country while facilitating visits from 
legitimate travelers. As part of that effort, biometric watch list hits 
increased by 185 percent at consular offices last year, rising from 897 
hits in FY 2005 to 2,558 in FY 2006. The use of biometrics has allowed 
DHS to take adverse action against more than 1,800 known criminals and 
visa violators.
    We will begin piloting ten-print capture devices at the ports of 
entry this year, and continue deployment through the following year, as 
part of the Unique Identity Initiative. This initiative will provide 
the capability biometrically to screen foreign visitors requesting 
entry to the United States and those requesting visas through the 
collection of ten-print (slap) capture at enrollment. US-VISIT, along 
with the Departments of State and Justice, will be able to capture ten 
fingerprints rather than the current two. Additionally, DHS continues 
to move forward with the development of ten-print interoperability 
between DHS's Automated Biometric Identification System (IDENT) and 
FBI's Integrated Automated Fingerprint Identification System (IAFIS). 
We are also poised to implement beginning this year a US-VISIT exit 
regime at airports and seaports. Further testing of exit approaches at 
land borders is needed.
    The TWIC Final Rule has been published and a contract has been 
awarded to enroll workers and issue credentials. This program is 
designed to issue a tamper resistant, common credential to all port 
workers and merchant mariners requiring unescorted access to secure 
areas of the nation's maritime ports and vessels after the successful 
completion of a security threat assessment. TSA and the Coast Guard 
will begin implementing the program in the coming months. A deployment 
schedule complying with the requirements of the SAFE Port Act is being 
finalized and will soon be made publicly available. All port workers 
should be enrolled and cards issued within 18 months of initial 
enrollment.
    Finally, we are about to launch the Secure Flight Initiative, which 
will strengthen watch list screening and vet all domestic air 
travelers. We expect to issue the NPRM soon, followed by a Request for 
Proposals (RFP) this summer to begin the roll out of this program. When 
complete, watch list screening will be consolidated at the Department, 
reducing the burden on airlines and enabling better access to results 
from our redress processes for travelers.

    Operational Screening Programs. In response to the foiled terror 
plot in England, the Transportation Security Administration (TSA) 
rapidly addressed the specific liquid explosives threat through 
decisive action and then nimbly modified the restrictions on liquids as 
more testing was completed. The initial outright ban on carry-on 
liquids temporarily increased security wait times, which then rapidly 
diminished. TSA initiated an aggressive program to train its 43,000 
security officers to address the threat and to get information on the 
ban to air travelers. TSA and other offices in the Department also 
intensively investigated the science of liquid explosives and its 
potential application on commercial airliners and conducted extensive 
explosive testing with our Science and Technology (S&T) directorate and 
other federal partners. As a result, TSA modified its ban on liquids by 
allowing limited quantities onboard aircraft safely and once again, 
wait times returned to normal levels.
    This modified ban has been very successful, as wait times during 
the Thanksgiving holiday in 2006 were slightly lower than in 2005 and 
airlines problems from the increase in checked baggage have receded. 
Over the next two years the document checking staff positions at 
security lines that are now filled by airline and airport employees 
will transition to TSA security officers. This will create an important 
new layer of defense for aviation security by increasing the technical 
competence and sophistication of the document checking process and 
allow the security officers to assess passengers at an earlier stage.
    Immigration Programs. Much work must be done to address the 
outdated and overly manual, paper-based business processes in place 
today at the US Citizenship and Immigration Service (USCIS). By law, 
USCIS is a fee-funded organization. We have just recently taken the 
first step in enabling this process by publishing a notice of proposed 
rulemaking to raise the fees that USCIS charges. Unless USCIS can 
capture the true cost of the services it performs, it will not have the 
funds to revamp the out-dated information technology systems hampering 
the efficient and effective delivery of the services its customers 
expect. Although costs will rise for most applicants, the results will 
be faster and higher quality service. We are dedicated to that last 
point. Even before the higher fees are in place, the onus will be 
squarely on the Department to deliver on our service promises.
    Personnel Security. The Secret Service operates the Domestic 
Protectees program 24 hours a day, 365 days a year to protect the 
President and Vice President and their families, former Presidents and 
their spouses, scores of foreign dignitaries and other individuals 
designated by statute or Presidential directive. All protectees arrived 
and departed safely at more than 6,275 travel stops during FY 2006. The 
2008 presidential campaign will present significant challenges because 
of the number of candidates and early start to the campaigns. 
Nevertheless, this is an area in which the goal is clear and will be 
accomplished over the next two years.

Protect Our Nation from Dangerous Goods
    Our continuing efforts to protect against dangerous goods involves 
screening cargo at foreign ports and at domestic ports of entry, and 
through interdiction at sea.

    Screening Cargo at Foreign Ports. Almost seven million cargo 
containers arrive and are offloaded at U.S. seaports each year. The 
U.S. Customs and Border Protection increased the percent of shipping 
containers processed through its Container Security Initiative prior to 
entering U.S. ports from 48 percent in FY 2004 to 82 percent in FY 
2006. This significantly decreases the risk of terrorist materials 
entering our country while providing processes to facilitate the flow 
of safe and legitimate trade and travel from more foreign ports.
    Last year, DHS and the Department of Energy announced the first 
phase of the Secure Freight Initiative, an unprecedented effort to 
build upon existing port security measures by enhancing the federal 
government's ability to scan containers for nuclear and radiological 
materials overseas and to assess better the risk of inbound containers. 
The initial phase involves the deployment of a combination of existing 
non-intrusive radiography technology and proven nuclear detection 
devices at ports. Over the next two years, we plan to expand the 
program to more ports and will continue to refine what information we 
gather along the logistics chain and how we transmit and process the 
data.
    Screening Cargo at Domestic Ports. DHS deployed 283 new radiation 
portal monitors throughout the Nation's ports of entry, bringing the 
number of radiation portal monitors (RPMs) to 884 at the Nation's land 
and sea ports of entry. These additional RPMs allow us to scan 90 
percent of incoming cargo containers, an increase of approximately 30 
percent from this time last year. I was at the LA/Long Beach Port last 
week, where 100 percent of all outbound containers are being screened. 
We will continue to procure and deploy sufficient radiation portal 
monitors, including next-generation Advanced Spectroscopic Portal (ASP) 
systems, to achieve our goal of scanning 98 percent of all containers 
entering the U.S. by the end of 2008.
    With respect to air cargo, we recently published air cargo security 
rules that will help prevent the use of air cargo as a means of 
attacking aircraft. The rules mark the first substantial changes to air 
cargo regulations since 1999, and represent a joint government-industry 
vision of an enhanced security baseline. These new measures will be 
enforced by an expanded force of air cargo inspectors, who will be 
stationed at the 102 airports where 95 percent of domestic air cargo 
originates.
    Interdiction at Sea. This year, U.S. interdiction efforts 
contributed to all-time records for seizures and arrests. The 93,209 
pounds of drugs that were seized were more than the combined amount 
seized in the previous two years. Long-term success in defining our 
border at sea will require a new generation of Coast Guard assets that 
the Deepwater Program must provide. Recapitalization on the scale of 
the Deepwater Program is a complex process. There have been several 
issues of concern, including with the extension of the 110' patrol 
boats to 123', and several design issues with the National Security 
Cutter. The Commandant has put in place a rigorous and disciplined 
program management team to resolve these issues. The 123' patrol boat 
problem, causing reduced operational reliability and crew safety, 
resulted in the Commandant cancelling the program. The first National 
Security Cutter has been launched. The issues with this hull are non-
critical, will not affect our ability to use the ships to full 
capability, and will be corrected effectively. Given the complexity of 
ship design and construction, it is not unusual for lead ships of a new 
class to require some design modifications. Some structures in the NSC 
require strengthening, and these enhancements will be made.
    In a recent message to all hands, the Commandant said, ``We have an 
urgent need to recapitalize our aging fleet. Our future readiness 
depends on it, and I am fully committed to this effort. . . . We are 
pursuing all efforts with a great sense of urgency. . . . Deepwater is 
fundamentally about the Coast Guard's ability to save lives, secure our 
maritime borders, and protect our marine environment.''
    Next Generation Technology. This past year, Domestic Nuclear 
Detection Office (DNDO) announced the award of Advanced Spectroscopic 
Portal (ASP) program contracts that could total up to $1.15 billion to 
enhance the detection of radiological and nuclear materials at the 
Nation's ports of entry. ASP models were deployed to the Nevada Test 
Site, where they will be tested using nuclear threat material. Portals 
have also been delivered to the New York Container Terminal for data 
collection. The ASP program is just one part of DNDO's Acceleration of 
Next-Generation Research and Development program that will increase 
funding across multiple DNDO research, development, and operations 
program areas over the next two years.
    On the biodefense front, the Department is committed to the 
development of automated biological detection systems that can be 
deployed in high-risk locations to provide the earliest possible 
warning of a biological attack. Our Office of Health Affairs is 
standing up the National Biosurveillance Integration Center in 
partnership with five federal government agencies to integrate 
intelligence and threat information with data on human and animal 
health and the nation's food and water supplies. All of these efforts 
are intended to enhance our awareness and detection capacity so that, 
in the event of an attack, the resources of the nation can be brought 
to bear quickly to mitigate its effects.

Protect Our Nation's Critical Infrastructure
    Working closely with state and local officials, other federal 
agencies, and the private sector, DHS helps to ensure that proper steps 
are taken to protect critical infrastructure and the economy of our 
nation from acts of terrorism, natural disasters or other incidents. 
America's critical infrastructure includes food and water systems, 
agriculture, health systems and emergency services, information and 
telecommunications, banking and finance, energy (electrical, nuclear, 
gas and oil, dams), transportation (air, road, rail, ports, waterways), 
the chemical and defense industries, postal and shipping entities, 
commercial and government facilities, and national monuments and icons.
    Protection Planning. We have completed the National Infrastructure 
Protection Plan (NIPP). The NIPP is a comprehensive risk management 
framework that clearly defines critical infrastructure protection roles 
and responsibilities for all levels of government, private industry, 
nongovernmental agencies and tribal partners. Initial drafts of all 17 
sector-specific plans are now under review within the Department.
    In 2006, 58 percent of identified critical infrastructure 
facilities have implemented Buffer Zone Protection (BZP) Plans, up 
significantly from our FY 2005 level of 18 percent. The Department 
worked in collaboration with state, local, and tribal entities by 
providing training workshops, seminars, technical assistance and a 
common template to standardize the BZP plan development process.
    Protection Standards. In 2006, DHS was given authority by Congress 
to implement risk-based security standards for chemical facilities that 
present high levels of security risk. This allows the Department to 
recognize the significant investments that responsible facilities have 
made in security, while providing the Department with authority to 
ensure that high-risk facilities have adequate safeguards in place. 
This year we will establish a chemical security office, the Chemical 
Security Compliance Division, to regulate the security of chemical 
plants. This office will include a national program office as well as 
inspectors and other field staff who are subject matter experts in 
chemical engineering and process safety, as well as an adjudication 
office.
    Protection Programs and Operations. The U.S. Coast Guard operates 
programs aimed at protecting our maritime domain, and combating 
maritime terrorism. In FY 2006, the USCG examined thousands of vessels 
for security compliance, completed comprehensive reviews of 23 nuclear 
and three chemical facilities, and conducted over 8,700 security-
related boardings.
    USCG also officially assumed responsibility for air intercept 
operations in the nation's capital from U.S. Customs and Border 
Protection in FY 2006. The Coast Guard will support with its rotary 
wing air intercept capability the North American Aerospace Defense 
Command's mission to protect against potential airborne attacks. Seven 
Coast Guard HH-65C helicopters and crews will be responsible for 
intercepting unauthorized aircraft that fly into an air defense 
identification zone that surrounds Washington, D.C.
    Rail Security Explosives Detection Pilot Programs were conducted in 
Baltimore, MD and Jersey City, NJ to test and evaluate security 
equipment and operating procedures as part of DHS's broader efforts to 
protect citizens and critical infrastructure from possible terrorist 
attacks. This year and next, TSA intends to expand its National 
Explosive Detection Canine Team program by approximately 45 teams to 
support the nation's largest mass transit and ferry passenger 
transportation systems.
    Building on analytical work done in FY 2006 and continuing in FY 
2007, DHS will begin the implementation of our Securing the Cities 
Initiative in the New York region. Activities include the development 
of regional strategies, analyses of critical road networks and the 
vulnerabilities of mass transit, maritime and rail systems. The New 
York Police Department is leading a consortium of regional partners 
from New York State, New Jersey, Connecticut and other New York City 
area agencies in working with DHS to development and implement a 
regional radiation detection deployment strategy.
    Next Generation Technology. The newly formed Innovation Division 
within the Science and Technology Directorate is charged with 
developing game-changing and leap-ahead technologies to address some of 
the highest priority needs of the Department. The technologies being 
developed will be used to create a resilient electric grid, detect 
tunnels along the border, defeat improvised explosive devices, and 
create high-altitude platforms and/or ground-based systems for the 
protection of aircraft from portable missiles. To help facilitate the 
development of technologies, the Innovation Division has established 
Integrated Process Teams working with each DHS component to help 
identify, develop and acquire technology to help the Department achieve 
its mission of protecting the homeland.

    Build a Nimble, Effective Emergency Response System and a Culture 
of Preparedness
    We have taken many steps toward building a nimble, effective 
emergency response system and culture of preparedness. The key this 
year will be how well we integrate the preparedness function into FEMA 
and realign FEMA to perform well and efficiently.
    FEMA's Vision Initiatives will enable the agency to intensify and 
speed the development of core competencies that are central to 
achieving its disaster readiness, response and recovery mission. Our 
efforts are aimed at increasing not only FEMA capabilities, but the 
federal government's ability to assist state and local governments 
affected by major disasters and national emergencies.
    A combination of staffing increases, new technologies, and targeted 
investment in equipment and supplies, will increase FEMA's mission 
capacity in the areas of Incident Management, Operational Planning, 
Continuity Programs, Public Disaster Communications, Hazard Mitigation, 
Disaster Logistics, and Service to Disaster Victims.
    Preparedness. The number of federal, state, local and tribal 
governments that are compliant with the National Incident Management 
System (NIMS) has reached a record level in 2006. NIMS incorporates 
standardized processes, protocols and procedures that all responders--
federal, state, tribal and local--can use to coordinate and conduct 
response actions. With responders using the same standardized 
procedures, they will all share a common focus in national preparedness 
and readiness in responding to and recovering from an incident, should 
one occur.
    By reviewing state and local disaster plans, co-locating decision-
makers, and pre-designating federal leadership, DHS is improving 
readiness and coordination across all levels of government. Through the 
Nationwide Plan Review, DHS completed visits to 131 sites (50 states, 6 
territories, and 75 major urban areas) and reviewed the disaster and 
evacuation plans for each. These reviews will allow DHS, states and 
urban areas to identify deficiencies and improve catastrophic planning.
    In 2006, DHS awarded $2.6 billion for preparedness. Included in 
this total is approximately $1.9 billion in Homeland Security Grant 
funds that have been awarded to state and local governments for 
equipment, training, exercises and various other measures designed to 
increase the level of security in communities across the Nation. An 
additional $400 million in grants was awarded to strengthen the 
nation's ability to prevent, protect against, respond to, and recover 
from terrorist attacks, major disasters and other emergencies that 
could impact this country's critical infrastructure. Almost $300 
million was distributed in grants to fire departments and EMS 
organizations to enhance their response capabilities and to more 
effectively protect the health and safety of the public and emergency 
response personnel with respect to fire and all other hazards. Of the 
funds awarded to Sate and local governments, almost $400 million was 
used by states to support state and local fusion centers--valuable 
partnerships in place across the nation in which interagency efforts 
are focused on sharing intelligence with state and local governments.
    Starting this year and extending through FY 2010, the Department 
will be co--administering a $1.0 billion Public Safety Interoperable 
Communications grant program, in partnership with the Department of 
Commerce.
    Response. FEMA's federal response teams were strengthened in 2006 
to improve our ability to arrive rapidly on the scene at a disaster 
site. The recent severe tornado incident in Florida demonstrated this 
improved responsiveness. Improving the timeliness of specialized 
federal response teams has saved lives, reduced property loss, enabled 
greater continuity of services and enhanced logistical capability in 
the wake of disasters.
    FEMA also increased registration capability last year to 200,000 
victims a day through its toll-free registration number, online 
registration process, and mobile unit capacity for registering 
individuals in shelters. Also put in place were increased home 
inspection capacity (20,000 per day), improved identity verification 
through new contract resources and tightened processes to speed up 
delivery of aid while simultaneously reducing waste, fraud and abuse.
    Vital to a robust response capability are situational awareness and 
tactical communications. To improve upon existing systems, DHS has 
initiated technological changes and improvements through the use of 
satellite imagery, upgraded radios and frequency management. The new 
National Response Coordination Center at FEMA and Mobile Registration 
Intake Centers are now operational as well. In FY 2006, FEMA 
implemented the Total Asset Visibility program to provide enhanced 
visibility, awareness, and accountability over disaster relief supplies 
and resources. It assists in both resource flow and supply chain 
management.
    Over the next two years we will be further professionalizing FEMA's 
disaster workforce by converting its Cadre of On-Call Response Employee 
positions that are four-year term limited into permanent full-time 
positions. This transition will stabilize the disaster workforce, 
allowing for the development and retention of employees with needed 
program expertise and will provide increased staffing flexibility to 
ensure critical functions are maintained during disaster response surge 
operations.
    The Coast Guard has improved its response capability by 
establishing a Deployable Operations Group and strengthening the Coast 
Guard's overall response capability. The alignment of Coast Guard's 
deployable, specialized forces under a single command will improve and 
strengthen Coast Guard's ability to perform day-to-day operations and 
respond to maritime disasters and threats to the nation.

    Strengthen and Unify DHS Operations and Management
    As the chief operating officer of the Department, a sustained focus 
of mine for 2007 and 2008 will be strengthening the management culture 
of the organization. In some areas, this will mean strengthening the 
authority of the Departmental Chiefs, while in others it will mean 
honing the skills and supplementing the resources within the 
components.
    Financial Management. We are committed to improving the 
Department's financial management. We are working aggressively to 
reduce the number of material weaknesses reported in our annual 
financial audit. This is especially true at the Coast Guard, which has 
the largest number of material weaknesses. The Commandant has 
established a high-level management team to work those issues, and he 
and I both are working closely with the Inspector General and our 
auditors on these matters. We cannot eliminate all of these problems in 
a single year. The problems are too entrenched and will require a 
concerted, multi-year effort.
    Procurement. The Department is just beginning or is in the midst of 
many crucial procurements, the success of which is vital to the success 
of DHS. These range from border security on both land (SBInet) and sea 
(Deepwater) to the screening of people (WHTI, TWIC, US-VISIT, REAL ID, 
Secure Flight) and cargo (Secure Freight, ASPs, EDSs). We are committed 
at the DHS corporate level to putting in place the oversight and 
processes that will ensure good business practices are the norm and not 
the exception.
    We have a strong, experienced Chief Procurement Officer whose work 
this year on improving the Department's performance will be a primary 
focus for her and for me. The Department is committed to providing the 
components with the staff necessary to award properly and administer 
Department-wide acquisition programs and to ensure effective delivery 
of services and proper procurement and contracting procedures in 
compliance with all federal laws and regulations.
    Human Resources. This year we will continue to roll out our 
performance management system to all elements of the Department. This 
follows on the deployment last year to 10,000 employees in multiple 
components and the training of 350 senior executives and more than 
11,000 managers and supervisors in performance leadership. We will more 
than double the number of employees under the performance management 
system and will include the new system in collective bargaining 
negotiations. We will also develop a common job classification system 
across the Department.
    The Office of Personnel Management surveyed federal employees last 
summer about various measures of job satisfaction and agency 
performance. The recently-released results for the Department were 
disappointing. Of 36 agencies, we ranked in the bottom three in such 
categories as job satisfaction, talent management, leadership and 
knowledge management, and in building a results-oriented performance 
culture. The Secretary and I are deeply concerned about the survey 
results and have made a commitment to our employees to improve job 
satisfaction of the DHS team.
    The Undersecretary for Management has joined the Secretary and me 
in carefully addressing issues reflected in the OPM survey. We will 
analyze the data, with specific attention to those government 
organizations that are recognized for their high performance, and 
determine specific steps for improvement. We will do so with a sense of 
urgency and seriousness.
    Strengthening core management is one of the Secretary's highest 
priorities and a key element is effective communications and proper 
recognition of our workforce. We will build on some good work that has 
already been done to chart a path forward on these issues.
    Information Technology. In FY 2006, the phase one construction of 
24,000 square feet at the Stennis Space Center Data Center was 
completed on time and the first application was transferred to this 
data center. We will unify IT infrastructures by reducing 17 data 
centers to two, seven networks to one, and establishing a common email 
operation. We will meet HSPD-12 goals by providing all newly-hired DHS 
employees with a single, secure, tamper-proof smartcard that allows 
interoperable access to DHS facilities and systems.
    Administration. A challenge the Secretary and I have for managing 
the Department efficiently is the current dispersion of employees 
across the National Capital region. The Department intends to 
strengthen and unify DHS operations and management by joining DHS 
headquarters' facilities at a single campus. Our operations are spread 
across every state and throughout the world, and this dispersion is 
unavoidable because that is where we conduct the Department's business. 
But the management cadres for the many components of the Department are 
spread across more than 40 locations in the National Capital Region. 
This dispersion is avoidable and, in fact, must be remedied for the 
efficient operation of the Department.
    The DHS consolidated headquarters project on St. Elizabeths West 
Campus is vital to the long-run success of the Department. Identifying 
and committing the funds for the rapid build-out of the campus will be 
a high priority.
    Intelligence. Over the next two years we will continue to 
strengthen the Department's intelligence and information sharing 
capability, and continue to integrate the intelligence offices and 
programs of the Department. We are strengthening our analytic 
capabilities, improving information sharing, and forging stronger 
relationships at the state and local levels to support our common work.
    In FY 2006, we initiated the Intelligence Campaign Plan for Border 
Security (ICP), managed by the Office of Intelligence and Analysis, as 
a departmental planning effort to provide comprehensive and coordinated 
intelligence support for the full spectrum of the Department's border 
security operations. The ICP is linking DHS intelligence resources, and 
those of state and local partners, with the Intelligence Community to 
deliver actionable intelligence to front-line operators and to fuse 
national intelligence with law enforcement information.
    As part of the ICP, we are developing strategies with the Director 
of National Intelligence to strengthen border security intelligence to 
support our operational missions. In addition, DHS intelligence 
analysts draw on their extensive experience in the Intelligence 
Community to help ensure that the Department gets full benefit from 
national collection assets.
    In close, there is a certainly a large and important agenda of work 
ahead for DHS. My colleagues and I very much look forward to working 
with the Congress on the work ahead for the Department.

    Chairman Thompson. Thank you. I thank you for your 
testimony.
    I remind all members that each will have 5 minutes to 
question the deputy secretary. I will now recognize myself for 
questions.
    You started off talking about the morale of the department. 
Can you lay out for me your time line and your pledge to 
improve the job satisfaction at the department?
    Mr. Jackson. Yes, sir. Thank you for that. I wrote a 
letter--the secretary and I consulted about all of our 
employees when we received the results of the latest OPM 
survey--and said that it was honestly a body blow to us to face 
up to something that we had to meet as a challenge to improve 
morale inside the department.
    We have had a chance to get the detailed results and have 
begun to disaggregate on an operating-component-by-operating-
component basis where we see the trends and the issues that we 
should be working on.
    They are generally a variety of management and 
communications and operational discipline issues, mission 
clarity issues, that we are going to work our way through.
    We have created a little task force. We have talked to each 
of the major operating component heads about what needs to be 
done. In the next 30 days we will finalize a much more 
aggressive plan of outreach and communications, some new tools, 
some listening sessions.
    We are looking at some guidance we have had from the 
homeland security advisory council that has given us some 
culture ideas. We are, in short, going to focus it at the 
operational level. Where we have our issues, we will put 
special focus when we understand a specific set of problems.
    So this is something we will be grateful to report back to 
you on during the course of this year. Nobody at DHS wants to 
stay at the bottom of this list. We are going to get off.
    Chairman Thompson. Well, it is a real concern of ours. 
Chairman Carney's resolution that was passed, as you know, 
earlier was an effort on our part to tell the rank and file 
people at DHS that we really appreciate the job, we understand 
the seriousness of it.
    However, I think it reflects, you know, management up. And 
that is a real, we think, indictment that you need to take 
serious and move forward. And we want to work with you on it. 
The department is too important a department for us to have the 
lowest rating of any department here in our federal government.
    On February 9th, Ranking Member King and I sent the 
secretary a letter inquiring about the delay on the $1 billion 
inoperability grant program. The secretary committed to having 
that resolved by February 19th. And you understand time lines 
have significant importance to us these days.
    Can you tell us, will you be able to meet that by Monday? 
Will the department?
    Mr. Jackson. Yes, sir. I fully expect to do so. I can give 
you just a brief update on that, if that is?
    Chairman Thompson. Please.
    Mr. Jackson. What we have been trying to do is make sure 
that we take this precious investment of $1 billion and make 
sure that it matches to producing real results when it hits the 
ground in our states and local communities.
    So what we are trying to do is align it to the planning 
work on interoperability assessments that have been done in 75 
cities and released recently as well as the planning work that 
was planned to be consummated by the end of this year at the 
state level, and make sure that we are making these investments 
in some reasonable and cost-effective fashion.
    I personally talked this week at length with my counterpart 
at the Department of Commerce. I think we are philosophically 
now on the same page about how to achieve the objective I just 
stated. We have a structure and a plan.
    We have an MOU that allows the Department of Commerce to 
move the money to us. The money will be spent through our state 
grant program process and administered through that. There is 
agreement there.
    We have outlined a time table and a work plan which will be 
part of the MOU, which we will obviously share with you, that 
shows you how during the course of this year we move through 
this, and then work through an investment that we will be 
meeting.
    Chairman Thompson. Thank you, sir. I understand that we 
will have the MOU as well as whatever other data by Monday?
    Mr. Jackson. That is my plan, sir.
    Chairman Thompson. Okay. We look forward to it. Can you 
just, in my remaining time, tell us why we have not met the 
mandate to establish the new Office of Emergency 
Communications?
    Mr. Jackson. The Office of Emergency Communications will be 
set up by the March 31st deadline for the reorganization. It 
was created as part of the reorganization plan.
    It is built into the planning for the successor 
organization to preparedness, as was explained in our letter to 
the Congress about the reorganization. It will be staffed, 
funded and moving.
    Chairman Thompson. So you just moved it back 2 months.
    Mr. Jackson. Well, we are trying to make sure that as all 
of that reorganization has stood up, we have--when the 
authority to spend money in these categories is made pursuant 
to our 872 notice, that we have a plan to do it, and we do, and 
it is a very high priority for us.
    Chairman Thompson. Well, we look forward to getting it on 
March 31. Thank you.
    And I yield to Mr. Lungren of California.
    Mr. Jackson. I can give you details about it after this 
meeting, before then, but I am telling you that is our deadline 
to make sure that it is staffed and running in a fully 
functional fashion.
    Chairman Thompson. Thank you.
    Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I don't want to be too simplistic on this, but part of a 
morale problem probably is designating what the mission is. 
When people are joining the Army, they know what they are 
joining. I mean, we changed the language, but when they are 
joining the Marine Corps, we know what they are doing, you 
know?
    If someone were interested in joining--or you were 
attempting to recruit someone for the Department of Homeland 
Security, what do you tell them? What is your mission? I mean, 
I don't want you to do it in 5 minutes, but what do you do to 
try and get them to have pride in your department?
    That is not the whole thing about morale, but it just seems 
to me it ought to be a starting point.
    Mr. Jackson. No, it is a good question. So here is the 
punch line. It is about protecting the homeland from attacks, 
terrorist and natural attacks.
    It is an all-hazard agency which delivers a lot of the 
support for that and coordinates with a vast array of partners 
at the state, local and private sector basis. And it provides 
an architecture for integrating the whole of the federal 
response to such emergencies.
    Then you have to unpack it on a mission basis. So if I am 
recruiting for the border patrol, there is a mission, a 
culture, and an ethos that we recruit to for that--the same 
with the Coast Guard.
    The Coast Guard's mission is a broad mission, everything 
from search and rescue to fisheries work. You clean up after 
oil spills. But it is a culture and a clear mission.
    We have these seven operating components, each with its own 
culture, all of which are harnessed to this one objective, and 
that is how we recruit to it, and that is how we are trying to 
sell this.
    I will tell you, in my office I have one thing on the wall. 
It is a picture of the hole in New York City after 9/11, still 
smoking.
    What I am continuously impressed with and just, frankly, 
enervated to see every place I--I mean, energized to see every 
place I go is how that same type of passion in its own way is 
in the heart and spirit of these people that are working here.
    So we are trying to boost that and support that 
understanding of their vitality to the nation.
    Mr. Lungren. Let me be very precise about what Comptroller 
General Walker said last week at our hearing. He said, ``Even 
in the private sector it takes 5 years to 7 years minimum to 
engage in a major transformation effort and be able to have it 
stick beyond the current leadership.''
    Having been in other agencies, including the Department of 
Transportation, do you agree with that? If you do, where is 
the--I don't want to use that as an excuse to say we have got 
to wait for a few more years, but if you agree with that, where 
is the department in terms of its integration?
    And how long do you think it is going to take us before we 
can come here and when you say I represent the Department of 
Homeland Security, everybody will say oh, yeah, I know what you 
mean, as opposed to man, that is that morass that we put 
together and threw everything in?
    Mr. Jackson. It is a learning experience for the Congress, 
and for the department's staff as well, and for the public to 
understand the functionality and the breadth of our mission.
    But I would tell you that we are relentlessly focused on by 
the time this president leaves office that we produce an 
integrated and functionally operating, effective, and 
managerially sound organization.
    That is the time that I have on my watch, this 2 years 
left, and the time that this president's team brings to this 
mission.
    So the things that we are trying to do--unpack all across 
the department. For example, we are trying to make sure that we 
have career people with solid experience who will stay over 
transitions and secretaries and presidents.
    And in FEMA, for example, we have had historically a 
tremendous and unacceptable level of vacancies and acting 
positions and people who don't have the depth of experience, 
maybe, that we need in this organization.
    In the last year, we have basically filled all of our 
vacancies at the management level. There is a few that are on 
the way to being announced as filled--but all 10 of the 
regional directors filled, people with 15 years, 20 years of 
experience in fire, police, military, emergency response work.
    Across the department, we are bringing a solid structure. 
There are people here in the management team of the 26 direct 
reports that the secretary and I have--there are only three 
that were in their positions 2 years ago.
    We are building a team of people that want to get this done 
and have a common vision like you are addressing.
    Mr. Lungren. Let me go back to interoperability, which the 
chairman talked about, because this is a bipartisan issue, 
concern, as reflected in the $1 billion that we put into 
legislation and that has not yet been spent.
    In terms of the MOU that will be established, in terms of 
the procedures you are establishing, can you assure us that 
once you have that, that we won't run into this problem again?
    In other words, is this memorandum of understanding--is 
this process that you are developing one that will be ongoing 
so that if we decide to put $1 billion in again we won't have 
another year or 1.5-year lag?
    Mr. Jackson. Well, the bill that told us to get this done 
in 2007 was passed, I believe, in October of last year, so we 
haven't been either wasting our time on working on 
interoperability all up, which has been a major theme of 
commitment and work in the department, nor have we taken an 
unduly long time to try to figure out how to accelerate it and 
spend the $1 billion.
    So the answer is this has been--your question is good. We 
have made a strong foundation upon which to build a plan for 
investing on interoperability, to look at the functional levels 
of integration at the institutional level, where you pull state 
and local together to want to make a plan and make it work, on 
the investment for the command level interoperability, and then 
at the lower levels, too.
    So I think there is more work to do here, but a very solid 
foundation to build upon and to use this money wisely. We will 
use it wisely.
    Chairman Thompson. Thank you very much.
    In the interest of full disclosure, that MOU was due 
September 30th of last year, and so we want to make sure that 
it is not like well, the money was only available October 1.
    But the MOU that we are talking about that is still yet to 
be presented to us, between you and commerce was due September 
30th, so we are looking forward to moving in that direction.
    I now yield to the gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you for being before us today. We have had an 
opportunity to discuss the issues that I care about recently, 
and I do note that in your written testimony you did put in a 
section about the desire to go forward and move forward with 
the headquarters for DHS.
    I just wanted to get on the record so that the committee 
could hear how important you think that is, if you can just do 
that quickly for us.
    Mr. Jackson. I will. Congresswoman, thank you for that. It 
is absolutely indispensable to our success to be able to 
integrate this department in a single headquarters location and 
to work in a more coherent fashion.
    We are going to get our job done in the interim, but this 
will be a management efficiency and integration impulse that 
will make a gigantic contribution.
    The president's budget calls for both us and GSA to spend 
considerable money on this and to launch this in our 2008 
budget process, and we are very eager to do that exactly.
    Ms. Sanchez. So considering we did a C.R. and there wasn't 
the monies we anticipated toward this, is that going to slow 
down the process of getting St. E.'s up and going for all to 
get together?
    Because I know, you know, one of the biggest faults we have 
seen in the reports is the management. And part of management 
is being able to have your people within a location where you 
can walk around and see what they are doing, and you get a 
cohesiveness between the different agencies.
    Are we going to get behind because there wasn't any money 
in there?
    Mr. Jackson. Well, I understand that there is some 
flexibility that the administration had sought in GSA's fiscal 
year 2007 budget which is not enabled by the continuing 
resolution.
    That flexibility would have allowed GSA to begin to spend 
money at St. E.'s this year so we continue to work with 
Congress to try to work that issue, but we are pushing very 
hard with the 2008 budget money, and we all hope to continue to 
press on the 2007 front to get us launched.
    Ms. Sanchez. Okay. As you know, over the last week or so, I 
have been, in particular, asking about--over the hearings with 
respect to the apprehension levels, et cetera between the 
southern, the coastal and the northern borders. And the numbers 
keep changing from 2006.
    It looks to me now like you all are claiming about 6,600 
apprehensions on the northern border for 2006, and I understand 
that there are no more than 250 border patrol agents on the 
northern border, which is over a 3,000-mile northern border, 
versus 2,000, for example, on the southern border.
    Given this low staffing level, how do you estimate how many 
people actually really got through? You don't know, but, I 
mean, how do you come up with the numbers to know that--you 
know, do we need more resources? Should we put more resources? 
Are people getting through?
    And secondly, with the plan to staff up to 18,000 agents, 
how many new agents will be posted on the northern border? And 
this comes directly from the fact that we did a hearing up in 
Mr. Reichert's district, and we had really an earful about how 
very little resources we have at the northern border.
    And lastly, about 10,500 maritime border apprehensions--as 
we move to fortify, do you see the Coast Guard getting more 
work in this arena? And through the budget are you manning up 
for that to be able to take care of that?
    Mr. Jackson. Yes, ma'am. Let me walk through those 
questions. On the question of the denominator, how many we find 
versus how many are going across, I wish I could tell you that 
we had an authoritative way to give you the number for that. So 
the answer is we don't.
    We have estimations, modeling, and work that multiple 
different sources--intelligence community and others--have done 
in this area.
    What we do know is the apprehension levels. And as you 
rightfully point out, they are vastly skewed to the southern 
border as opposed to the northern border.
    Now, we have done multiple ways of trying to watch to make 
sure that the levels that we are apprehending are proportionate 
to the levels that we think are coming across, and we do 
believe that they are roughly in balance at those two borders.
    That being said, the second question that you lead to is 
the question of resources. This year we have created an 
aviation push to put some of our air assets up to the northern 
border. That will be accomplished in 2007.
    We are going to put more of the border patrol agents from 
the growth in the border patrol on the northern border. We are 
doing pilot work with our Canadian counterparts to focus on 
specific point-of-entry and between-point-of-entry issues.
    The Coast Guard, for example, has worked on the water 
border on the Great Lakes with our Canadian counterparts on 
joint operations for managing the border.
    There is a longer plan for the northern border that we must 
unpack and pursue aggressively. It is true and I think it is 
appropriate that the administration's SBInet investment is 
disproportionately focused on the southern border. And that is 
where the volume is.
    But I would not want to suggest by that that that is where 
the only problem lies, and so we have to have a comprehensive 
plan.
    And finally, just to say on your question will there be 
implications for the Coast Guard as we strengthen control of 
the border, and the answer is yes.
    And that is part of the deliberate planning that the 
commandant has undertaken with us to make sure that, A, we have 
integrated the common operating picture to understand where the 
movements are coming and where our enforcement efforts are 
integrated, and that we be prepared to understand that if we 
have closed off the land border, for example, in the southern 
part of the country in an effective fashion, that we will have 
to be prepared to make sure that we are aggressively monitoring 
the sea channels as well.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Alabama, Mr. Rogers, 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank you, Mr. Jackson, for being here. As you know, I 
am very interested in border patrol agent training costs.
    Mr. Jackson. Yes, sir.
    Mr. Rogers. And the department says it costs $187,744 to 
recruit and train a border patrol agent. GAO broke this down, 
with the cooperation of your department, to being $34,500 for 
recruitment and training, $21,000 for equipping them, and then 
$74,000 to deploy them, and $57,000 for the infrastructure 
impact.
    The last two of these categories, deploying and 
infrastructure impact, make up 70 percent of the cost. And I am 
going to give you all these figures and these questions. But, 
just on its face, do you believe that $187,000 is too high a 
cost to train a border patrol agent--train and equip them and 
put them in the field?
    Mr. Jackson. Well, when you break apart the latter costs, 
the 70 percent, it really is the cost of getting them in the 
field, making sure that we have facilities to accommodate them, 
the vehicles that they will use to operate and do their 
mission, the weapons, the tools and infrastructure to support 
them.
    That is a very large portion of the cost. I was just last 
week at our Artesia, New Mexico, training facility to go 
through and to look at whether and to what extent we are 
prepared for completing the surge to grow the full 6,000 in a 
timely and cost-effective fashion.
    I will tell you that I have high confidence in the plan to 
do that. And in terms of timeliness, we have done multiple 
things to be able to train them. We have taken the base 
curricula to about 81 days, I believe.
    And we are going to start at the end of this fiscal year 
with a two-track plan that takes people who are native or 
highly proficient Spanish-speakers and subtracts some of the 
training days. That gets us into the mid 50s as the length of 
time.
    So there is multiple different ways we are trying to make 
sure that we are going to get these people trained with high-
quality skills and then out into the field.
    Part of that field cost--after they go out there, there is 
additional mentoring and support where we don't send them out 
by themselves initially, and they are supported by other border 
patrol experienced personnel.
    On the facilities side and the cost side, I ate a lunch in 
the cafeteria. I can tell you they weren't spending excessive 
amounts there. But the food was good and the morale was high, 
and the training staff that I met with is strong. So I think we 
will do a good job there.
    Mr. Rogers. Well, when I give you this list and the 
breakdown, I think you are going to find, particularly in the 
infrastructure impact category, there are some really 
outrageous numbers that I think could be worked on.
    Mr. Jackson. Okay.
    Mr. Rogers. And I am looking for your help to try to?
    Mr. Jackson. Good.
    Mr. Rogers. --find a way to get that down.
    Mr. Jackson. I will dig for dollars. We need every one of 
them spent in the best possible way, so I would be eager to 
look at your list.
    Mr. Rogers. And the second question I had you touched on a 
little bit, and that is in the full committee last year, 
Secretary Chertoff agreed that there were a number of standard 
courses in training, like Spanish, physical fitness, self-
esteem training, that could be taught by instructors that 
weren't necessarily border patrol agents, which is one of the 
things we have been encouraging FLETC to do at Artesia, is 
think outside the box, find a way to take this infrastructure 
and make more use of it.
    But then FLETC had included in the Appropriations Act of 
last year, 2007, the homeland appropriations, language that 
said all these instructors were inherently governmental posts 
specifically to prevent us doing what we had been talking about 
doing, or what you all had been talking about wanting to do and 
what the secretary says we need to do.
    I am interested in knowing do you agree with Secretary 
Chertoff that things like physical fitness, Spanish language 
and self-esteem can be taught by somebody other than a border 
patrol agent?
    Mr. Jackson. I believe that we can look at the curricula 
and make sure that we are making the most effective use of 
border patrol people and outside parties to train where 
appropriate.
    I do not support the provision that was in the 
appropriations bill that reduces our ability to look at those 
issues. And part of my visit to FLETC was to have a 
conversation with the team on exactly these types of issues, 
about how to get the best investment for our dollar on the 
training.
    Mr. Rogers. Well, we would ask that you work with OMB and 
us to try to get that remedied in this year's appropriations 
bill.
    And then finally, from a more parochial perspective, the 
budget that came out--you know, we just got through merging 
Noble Training Facility under CDP.
    Mr. Jackson. Yes, sir.
    Mr. Rogers. Noble Training Facility had a $5.5 million 
budget. It was merged out of U.S. Fire Administration into CDP, 
which was a good, logical thing to do.
    Mr. Jackson. Yes, sir.
    Mr. Rogers. But the $5.5 million budget that went with 
Noble didn't go with it to CDP. And further, CDP's budget was 
cut by $3 million.
    That doesn't make sense to me, how you expect that entity 
to continue to operate with no money, and the entity you have 
merged it with--you took away money from them, and they had 
been level funded last year. Tell me what you can do about 
that.
    Mr. Jackson. Well, I will be happy to look into that 
particular line item on the budget. I do think that there is 
expected to be some operational efficiencies--
    Mr. Rogers. I agree.
    Mr. Jackson. --in moving these two in the administration 
where were duplicating administrative assets in two 
institutions that were literally very close to each other.
    So I think we will find some administrative savings there, 
but I am happy to look at the particular budget item that you 
are raising.
    Mr. Rogers. Thank you very much.
    Mr. Jackson. Yes, sir.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Washington, Mr. Dicks, 
for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman.
    And I wanted to ask you a couple questions on this Secure 
Border Initiative and SBInet. This is a very important program. 
You are doing a 28-mile segment of this virtual fence known as 
Project 28 in the Tucson sector as an initial task under the 
contract.
    Now, I would like you to explain how we are going to use--
you know, the previous Congress put money in for a start, I 
guess, on 850 miles of actual fence. And now we are going to 
have a virtual fence.
    Tell us how this is going to work.
    Mr. Jackson. It was actually 700 miles of double fence, 
which is 1,400 miles of linear fence, in the legislation. But 
the legislation also required the department to install a 
lights and sensor array along a large stretch of the border, 
essentially virtually all of the Arizona border, as the first 
priority in this investment.
    We believe that fences are an important part of the toolkit 
that we must use at the border. They are not the only toolkit 
that we must use at the border. We will install fence where it 
is appropriate. We have committed that we will build at least 
70 miles more fence this year. If we can accelerate that, we 
will.
    We have put together a pilot--a fence lab, which is 
basically through SBInet a very short-term R&D effort to look 
at how we can build fence more inexpensively and stronger. We 
are going to ram it, burn it, cut it, do everything we can to 
find the lowest cost, highest value.
    But we are looking at a sensor array that is ground-based 
radars, detection intrusion sensors, the proper alignment of 
our people, of the infrastructure, to get to the points of 
interdiction, and of the right staffing level to do all this.
    Mr. Dicks. Right. Now, here is one concern that the 
inspector general had. And this is very important, because I 
have been on Defense Appropriations for 20 years. I have seen a 
lot of contracts for important projects not work out.
    One of the problems is you have got to have in your 
department people who have an understanding of this technology 
in order to watch these contracts and be able to make sure that 
the contractor is performing.
    And one of the concerns expressed by the inspector general 
was whether you have that kind of capability. And I hope that 
you will take a look at this.
    Mr. Jackson. I have read the report of the inspector 
general. I have talked to the inspector general about this. And 
I have worked with the CBP about it. His report is a warning in 
advance that says that if you do not do these things, you will 
fail.
    The things that he proposes we do we are in total agreement 
with, are in process of doing, have already made very 
substantial growth in both the procurement staff and the 
program management staff to do this.
    On the technical experience, I went last week with the 
director of CBP, with the commissioner of CBP, Ralph Basham, to 
the border and literally, almost mile by mile, from Laredo, 
Texas, to the Pacific Ocean. We went to try to map the 
preliminary assessments of what our people are recommending.
    We stopped and we looked at the ground-based radar 
applications in Arizona to see how that tool fit in and to 
listen to the people who are operating it every night and every 
day.
    So I think we have a very solid team. I think we have a lot 
of flexibility under this contract to either buy from the 
Boeing contract or not buy from the Boeing contract, depending 
upon what is there.
    This is not rocket science technology. It is not the 
bleeding edge.
    Mr. Dicks. Okay. Good. All right. Now, let me ask you this. 
As you built these fences in San Diego and in those areas, a 
lot of the people coming across the border moved to Arizona and 
other places.
    A lot of the lands on the border are Fish & Wildlife--I 
chair the Interior--
    Mr. Jackson. Yes, sir.
    Mr. Dicks. --Environment Appropriations Subcommittee--are 
Park Service, Forest Service, Fish & Wildlife Service, and they 
have a different responsibility.
    I mean, and they are concerned that, you know, these people 
are coming across. They are bringing cars. They are bringing 
drugs. It is very dangerous. And they are leaving a terrible 
mess there on the border on these important federal lands.
    And explain what you are doing with these agencies to deal 
with this problem.
    Mr. Jackson. Yes, sir. With every one of the agencies you 
have mentioned, we have a very tight conversation and close 
alignment on what to do and how to do it. We will be working 
the SBInet solutions with those agencies.
    There is an Indian reservation on the border that we are 
working very closely with. There is a wildlife refuge that we 
are working very closely in. So we have to make sensitive 
investments there in conjunction with those partners, and we 
are doing absolutely that. We are on the same page.
    Mr. Dicks. Are you doing the environmental assessments and 
other things?
    Mr. Jackson. We are doing EIS work with them. We are doing 
assessments of the damages that are caused. I can show you 
pictures of--
    Mr. Dicks. Yes, I would like to see that. What about 
getting rid of the things that are left by the drug 
traffickers? I mean, I am told there are cars there. There is a 
terrible lot of mess left there. Do we have a cleanup approach?
    Mr. Jackson. Yes, we have a cleanup program that does 
remove some of those type of assets. And by putting vehicle 
barriers, for example, across some of these desolate stretches, 
the vehicle barriers prevents the automobile traffic from 
coming and then bleeding into the country in a fast way.
    If you are on foot in these desolate areas in Arizona and 
New Mexico, it is a much more difficult task to be able to get 
past there if you don't drive. So there are multiple points of 
integration with these agencies and with land owners in the 
border area as well.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Washington, Mr. 
Reichert, for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    Good to see you again, Secretary. As the chairman mentioned 
and Ms. Sanchez mentioned, we need to work together.
    So when we talk about morale and we talk about trying to 
coordinate, organize and manage 220,000 employees or so in 22 
different departments, I think that the committee had the 
subcommittees and, in fact, the entire body has to take some 
responsibility in the way that the Department of Homeland 
Security moves ahead or doesn't move ahead, because we have 
great influence, and it does, indeed, need to be a partnership.
    Mr. Jackson. Yes, sir.
    Mr. Reichert. So with that, I just have a couple of 
questions about how many full committees does the Department of 
Homeland Security report to or have--has authority over your 
operation?
    Mr. Jackson. Well, we have three major authorizing 
committees in the House and our appropriations in the House, 
and we have at least an equal number in the Senate. There is 
multiple subcommittees in each one of those. And then there are 
people who come in for one-time and more narrowly focused 
events.
    The estimates of how many committees of oversight we have 
hover around the numbers in the 60s these days, so it is--I am 
going to say we don't feel unloved by Congress. Everybody is 
interested in our mission. That is the good news. And so we 
consult broadly.
    Mr. Reichert. I think there is some responsibility on our 
part to try and streamline your, you know, response to Congress 
and our input into your organization.
    Mr. Jackson. I should just say--and, Mr. Chairman, we do--
and the secretary has said this. We recognize that in the House 
this committee has a unique role for us, and we are committed 
to work with this committee in an especially intensive way 
because you do cover the whole territory for us, and we are 
very much eager to make sure that we have covered all of the 
issues with this committee.
    Mr. Reichert. Having been the sheriff of a large sheriff's 
office in Seattle, Washington for 8 years, and working with the 
county council, I know full well the impact that legislation 
passed by city or county council can impact morale.
    And we can do the same here in this body, so we have to 
bear responsibility for some of this, is my point.
    And along those lines, this $1 billion in commerce, entered 
in Department of Commerce--wouldn't it have been better to have 
that $1 billion in grants and training, so that you could have 
better management and oversight over that money?
    Mr. Jackson. Well, I am going to say that I don't need to 
second-guess that at this point. What I will tell you is we are 
committed to looking forward and making sure that it is done in 
the most effective and efficient way.
    And I really do believe that we have a very strong 
partnership with the Commerce Department, so where the money 
came from at this point is immaterial to us. We are going to 
spend it in the right way. We are joined at the hip with our 
colleagues at commerce to do exactly that. We both have the 
same mission that you guys are talking about as well.
    Mr. Reichert. I understand your answer, but inside the 
Department of Homeland Security, again, with over 200,000 
employees in 22 departments, and now having to also coordinate 
interoperability expenditures with another department creates, 
I think, another level of bureaucracy that is unneeded.
    Interoperability assessment--done. Now what?
    Mr. Jackson. Well, we did the 75 urban areas, and that was 
a very valuable experience because it said that roughly in 
about half of those places we were institutionally making good 
progress. We are making good investments.
    As you know, sir, from your work in law enforcement, it is 
a complex web of entities that have to be linked together. But 
at the top, it is the institutional leaders who have to make 
that plan. And we see good progress in a lot of places.
    The second part of this, which is currently due at the end 
of the year, and which we are going to try to see if we can 
accelerate a little bit better so we can make investments with 
this $1 billion in a better way, is the state-level plan.
    So in other words, they consult the local plans. And they 
take an overlay of the whole state and say where do our needs 
exist in a most urgent fashion, and how are we going to proceed 
in an integrated way.
    So we think that there is a lot of consultation that we 
will be doing both with the cities and states over the course 
of this summer and spring to get this money out in the right 
way.
    And then our plan is to execute a cooperative agreement 
with each of the authorities that we will be funding through 
this program so that we have a chance iteratively to go back 
and say show us how this aligns with the criteria that we are 
setting for the program, show us where you are working.
    And then instead of just throwing a proposal over the table 
and hoping they guessed it right, that we will--they will be 
working through that on a very, you know, sleeves rolled up and 
engaged way.
    Mr. Reichert. Thank you.
    I yield.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from California, Ms. 
Harman, for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman.
    And welcome to our witness. As you know, I consider myself 
one of the godmothers at the Department of Homeland Security, 
for better or worse, and I think that?
    Mr. Jackson. For better.
    Ms. Harman. Thank you. The start was quite slow, but we are 
now making more rapid progress. And I know you agree that the 
partnership with this committee is a useful thing as we all try 
to get it right.
    I have said for many years that the terrorists are not 
going to check our party registration before they blow us up, 
and so we just better have in place the right strategies.
    You have been asked by several members here about 
homeland--about interoperable communications, and I just want 
to underscore something Mr. Reichert said, and you also said, 
which is the strategy matters. It is not just a matter of 
handing out money to folks who can make a case.
    It is a matter of using the leverage that that money gives 
you to force communities who have very different ideas about 
what their needs are to play by one set of rules.
    If we should have simultaneous or near-simultaneous attacks 
of any kind around America and the communities which are 
attacked can't communicate with each other or you, I think you 
will be blamed--so will we--for not fixing a problem that we 
identified on 9/11 as one of the critical problems we had.
    So I just wanted to underscore that point and say that 
strategy matters. And as a representative from a community that 
wants a lot of money, I would say to my own community that this 
is about more than their needs. It is about the nation's needs 
to get this thing right.
    So I know I haven't said anything you disagree with.
    Mr. Jackson. Total agreement with you, ma'am. It is not 
just about gizmos. It is about that command integration 
strategy.
    Ms. Harman. Correct. And it is not just about gizmos. And I 
personally will pay a lot of attention to this, and I still 
think there are major steps we have to take to get this right. 
And I am very pleased to see your commitment.
    I want to talk about a couple other things that are also 
important to get right, one of which is our TWIC program.
    Mr. Jackson. Yes.
    Ms. Harman. You have been rolling that out on time. I 
commend you for that. But you are going to charge for these 
cards, and I think I was surprised by that. Perhaps that was 
because I wasn't paying attention.
    But here is an opportunity to either do a program right 
that will help us identify all the people who are at our ports 
and airports, which is something we have to do--the back door 
matters as much as the front door--to get it right, or to get 
it wrong.
    And I just want assurance again that if this is a fee-based 
program you are going to figure out how to do this so that you 
don't break the piggy bank, and workers don't opt out, and we 
don't have problems with this as it rolls out.
    Mr. Jackson. It is a very important thing. It is a fee-
based program. We actually have reduced our final fee a little 
bit beyond our initial--the range, our estimate. The fee is 
driven by us to as low a level as we can make, consistent with 
giving the biometric technology the full deployment and the 
ongoing screening that is a part of this program.
    It has a very considerable front end. To enroll, for 
example, all the workers at L.A./Long Beach as a good and big 
job. So that is part of what this fee structure will cover.
    There will be no opting out. Once the TWIC becomes fully 
operational and deployed, it is a mandatory requirement if you 
want unescorted access to a port area.
    So this is a very valuable tool. We are going to work very 
closely--I was out in your home town, as I think we discussed 
last week, and met with labor and port operating authorities to 
make sure that we are working very carefully out there, because 
they are one of the initial pilots of the deployment.
    Ms. Harman. Well, a lot of us have keen interest in this. 
The ports of L.A. and Long Beach happen to be the ports of 
entry and exit for almost 50 percent of the nation's container 
cargo.
    But it is not just--even if we get the container strategy 
right, if the truck drivers who are at the port site are not 
cleared, we are not fixing the problem of port security, which 
you understand.
    Mr. Jackson. They will have TWICs too.
    Ms. Harman. Right. I understand.
    My last question is about funding for the Safe Port Act. I 
am sorry Mr. Lungren just left, but all of us up here, again, 
are very focused on this.
    The administration's budget contains about half of what we 
thought necessary on an annual basis, and I just want to give 
you an opportunity to comment on that.
    Mr. Jackson. Well, I think that the budget that the 
president has put up is a strong one in the maritime area, and 
it draws upon multiple different parts of the department--Coast 
Guard and CBP and TSA and others, some fee-based programs like 
the TWIC--to give us a layered defense.
    We are starting out very strongly with a thing that is 
embedded in the Safe Port Act, a good idea of pushing the 
borders out to do radiological screening overseas. We have got 
a very strong pilot program starting this month in locations 
around the globe.
    I think we are going to need a little time to practice that 
and get this very complex network assembled and the operating 
protocols on the ground. But we are committed to this mission, 
and I think we have a strong amount of money aligned against 
it. We will continue to assess that as we operate.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    I strongly believe that insufficient interior immigration 
enforcement is undermining our efforts to secure the border and 
providing strong incentives for illegal immigration. My 
understanding is that ICE special agents prioritize work site 
enforcement efforts by focusing their investigations on those 
related to critical infrastructure and national security, as I 
believe they should.
    Do you believe that ICE needs additional special agents to 
provide proper work force enforcement at sites not related to 
critical infrastructure and national security?
    Mr. Jackson. Yes, I do, and we are putting teams of that 
sort together. For example, we have put in additional money in 
the 2007 and 2008 budget to grow our fugitive operations 
budget, which is, you know, subsets of what you are talking 
about, so we can do enforcement of individuals who are under a 
deportation order.
    We have grown the focus not just on national security-
related facilities but really a broader set of enforcement 
actions, and we have grown the ICE workforce to do this.
    We are looking at tools--the basic pilot program to work 
with the employer community in a more aggressive way, to be 
able to make sure that they have the tools available to 
validate that the employees that they are trying to hire are 
appropriately hired.
    So the ICE budget that is focused on interior enforcement 
actually is a robust one and involves partnerships at the state 
and local government level, too, on BES teams and other work at 
the border, as we try to prevent the interior enforcement 
problem from growing.
    So I think we have a very aggressive growth plan for 
interior enforcement, as part of the three components of real 
immigration reform, controlling the border, interior 
enforcement and a temporary worker program, which the president 
very strongly advocates and which the department is very eager 
to work with Congress to help introduce.
    Mr. Bilirakis. And you know, without the interior 
enforcement, in my opinion, we can't have a temporary worker 
program.
    We heard from Border Patrol Chief Aguilar earlier this week 
about CBP efforts to strengthen border enforcement on the 
southern border.
    He seemed not to share my concern that existing border 
patrol policies on pursuit and the use of force limit an 
agent's ability to protect themselves in dangerous situations 
and stop dangerous people from getting into the United States, 
which according to your testimony is one of the department's 
top five goals.
    Do you share my concerns about border patrol policies on 
pursuit and use of force?
    Mr. Jackson. I would have to explore those concerns in more 
detail with you, but what I will tell you is I am very focused, 
and I think the CBP leadership is focused, on making sure that 
our men and women who are working in harm's way sometimes, 
whether it be as the target for Iraq that is being thrown or a 
vehicle that is blasting through a point of entry--we want to 
make sure that our troops are prepared to respond in the right 
way.
    And the border patrol mission is one that is a dangerous 
mission, and we have to provide the right sort of policies and 
support. So if there is a particular suggestion that you have 
that you would like us to review or look at, I would be happy 
to talk through that with you.
    Mr. Bilirakis. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now yield to the gentleman from North Carolina, Mr. 
Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Secretary thank you.
    You said in your testimony that you are an all hazardous 
agency in protection. My question is that I have heard that 
there is a perception at the department that work to prevent 
and protect against weapons of mass destruction is a marquis 
issue, and that promotions and other recognitions are tied to 
the work on WMDs, or at least there is that perception.
    While I happen to agree that that is something we are all 
gravely concerned about, and I think you can agree with that--
but the actual work and risk at homeland, especially work done 
by FEMA and others, are important because we are as likely to 
have a natural disaster.
    And all we have to do is think of Katrina and Rita as that. 
And the upcoming hurricane season--as we are--for that.
    So my question is, what are we doing to broaden the focus 
for the people at working levels, so they understand that? And 
how are you ensuring that personnel are rewarded for all hazard 
work as well as work to combat terrorism?
    Mr. Jackson. Sir, I totally agree with your focus on all 
hazard. That is the department's focus and policy. The work we 
have to do here--we have to be able to walk and chew gum at the 
same time.
    The WMD work is absolutely vital, but the work to prepare 
for this hurricane season is a major management focus for us, 
and also for earthquakes or tsunamis and other natural events. 
It is an indispensable part of our work.
    We have a complex department, but we must work all these 
missions simultaneously. That is a little bit about what my 
testimony talks about in the beginning, about this dashboard 
navigator.
    We have to be looking with constant reference points on 
where all of the risk elements are and what we are doing to 
array the protect and prevent and the respond and recover 
capabilities for each of those intersections.
    And so I believe that in FEMA, for example, where the 
natural disaster preparedness work is rooted, but not 
exclusively, that we have fundamentally transformed the 
organization last year. We had something like 90 core 
procurements between the beginning of last year and the 
hurricane season.
    We met with the secretary, the FEMA director, the FEMA 
deputy and his team yesterday to look at this year's core 
innovation initiatives that are going to be done before the 
hurricane season. We have got a long spreadsheet of issues to 
work through?contractual, organizational, personnel, policy, 
funding, et cetera.
    So this is very much a part of what the secretary's mind is 
on every day. And our management team has to understand that 
this is all part of what we do. So it is important for the 
Coast Guard to know they are going to be called upon to help 
this.
    The TSA fundamentally changed the way they do operations 
and surge for an emergency based upon the Katrina experience. 
The ICE and the CBP people have done just the same. So we are 
knitted together around this principle.
    Mr. Etheridge. In keeping with that statement, let me ask 
one additional question as relates to grant funding, because in 
your testimony as well you cited the positive effect of 
homeland grants to the nation's preparedness to strengthen from 
either manmade or natural disasters.
    And as you noted, these grants strengthen our local folks, 
our police, our firemen and our emergency medical personnel and 
others who really are the first line of defense, you know.
    Mr. Jackson. Yes, sir.
    Mr. Etheridge. We have a responsibility--they are the 
people out there on the ground that we are going to count on.
    So given that--we asked the secretary about this as well--
that grant funds appropriated at the department have not really 
reached the local level. They are in the system--about $5 
billion still remain unspent.
    Furthermore, the department has been consistently late in 
distributing this much-needed money and providing grant 
guidance to potential grantees.
    Long and short is even in the 2007 appropriations bill, the 
department is 7 weeks late in putting out the grant guidance, 
because they can't ask for it if we don't have the guidance.
    What is the department's plan for processing the 
applications and distributing grant awards this year in a 
manner that will further facilitate this action?
    And number two, what is the status of the backlogged grant 
funds? And finally, how are we going to keep this online as we 
move forward? Because that is an important--probably the first 
line of what homeland security should do, pulling together to 
make it work.
    Mr. Jackson. This is a great question. Thank you for 
asking.
    We started out with performance that I found unacceptable. 
My first year as COO we delivered the rants, the guidance and 
the money like under the wire at the end of the fiscal year. 
Not good enough.
    This year, we have punched that from September up to all 
the grant guidance out by January. That was a major change. 
Along the way, we did a very, very radical look at our risk-
based analysis.
    We learned some lessons from some criticism last year. We 
went to work on the math. We have talked to state and locals. 
We brought them in to talk to us about what works and what 
doesn't work. We have a very strong formula for this.
    And I will tell you, here is our pledge inside the 
department. By the time that the beginning of the fiscal year 
starts next year, we will have already written and vetted and 
gotten ready to launch our grant guidance.
    So that if there is not significant change imposed by 
congressional action before the end of the fiscal year, our 
plan is to have those grant guidance documents out in early 
October, and as early in October as we can do, but that is the 
month that we plan to do it.
    So after that, it will be on a glide path where every year 
that is where we will do it. The Congress passes the money, and 
we get the dollars out to the people who need it.
    We do need to work on the backlog. We are working with 
people to make sure they are spending this money and doing 
things with it that need done.
    Mr. Etheridge. Thank you. Please keep us updated, because I 
think this is a critical issue back home. It is critical for 
our nation.
    Mr. Jackson. It is, and what this means is there is a 
compression of money coming at the state and locals because we 
have backed it up by half a year this year, and next year we 
are going to have that money out to them soon, too.
    So that is the way it should be, and that is the way the 
department should be measured. It is a very fast turnaround 
after the Congress does its work.
    Mr. Etheridge. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    We now recognize Mr. Davis of Tennessee for 5 minutes.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    If you could, just bring me up to date on how many actual 
miles of fence are going to be built and how many virtual miles 
are planning on being built.
    Mr. Jackson. Right now what our plan is for this fiscal 
year--to build an additional 70 miles of fence. At the 
beginning of the fiscal year, there was roughly 75 miles of 
fence. Our plan today, untouched, is to get by the end of 
2008--to have 370 miles of fence at the border.
    I think that that is certainly a doable task, and we are 
pushing there along the way. We will need to work in 
cooperation with the Congress to make sure that they feel also 
that the right investment between virtual, for example, ground-
based radar systems are put in the right mix with the physical 
infrastructure that we have.
    We are going to also put a lot more miles of vehicle 
barriers there, which are in effect a fence against trucks and 
vehicles coming across the border. So that will be much larger 
than the 370 miles.
    But we are going to have to just work through this with our 
congressional committees and with the people in the field who 
have this work. But we will be building a significant amount.
    Mr. Davis of Tennessee. So the 370 miles--does that include 
the virtual fence, or is that in addition to the?
    Mr. Jackson. Some of those areas will have other elements 
of the virtual fence. Hopefully, ultimately all of them will. 
So I will give you an example. There are embedded sensors in 
the ground that detect penetration across the border. That 
helps us.
    It takes some low technology and puts it into a high-tech 
operating platform so that we can deploy people to interdict 
illegal aliens moving across the border.
    I was out in Arizona and stopped to talk to a border patrol 
agent by the name of Lee who was doing a job of running ground-
based radars. He has one of two sites in between a mountain 
range that is about 30 miles, call it, wide. Between those two 
sites, they can actually peer at the traffic and virtually 
identify, you know, all inbound illegal entries.
    So then we have the job of coordinating the interdiction 
part of it. But this technology--I literally was able to watch 
a cow drinking water out of a pond two miles away, and that 
type of technology is what we mean by the virtual fence. It is 
not bleeding edge. It is there. It works. It is demonstrated. 
It is proven.
    And if we can deliver that, frankly, that type of 
integration work will transform our capacity to enforce at the 
border.
    Mr. Davis of Tennessee. And along the same subject of 
border patrol, I am from Tennessee, and I know in January there 
was a situation where the Tennessee National Guard was not able 
to use weapons or protect themselves.
    Can you talk a little bit about that situation and what we 
can do better to make sure our border guards are protected?
    Mr. Jackson. One of the things I did last Tuesday night was 
go out late in the evening to a remote facility that was a tent 
on top of a hill where night vision tools were being used by 
National Guard members from around the country to monitor a 
specific area of the border.
    I have to tell you, I was just so impressed with the 
excitement that they had for the mission, the commitment they 
had. They did have weapons. The weapons are self-defense tools. 
They are not on the front line of enforcement. Their job is to 
augment the role of the border patrol.
    The border patrol are the ones that are paid to get in 
harm's way if there is harm to be had here. So the partnership 
between the two of them was just fantastic. I went up and sat 
on that hill in the middle of the night and talked to a 
sergeant who had been there for a couple of months and had a 
couple more months to go.
    And he had been to Iraq on a mission as well. He was 
extremely excited and complimentary of the partnership, excited 
about the mission and complimentary about the partnership. So I 
think this is working great.
    Mr. Davis of Tennessee. Thank you.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Texas, Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    And thank you, Secretary, for being here with us. But let 
me just ask you a couple questions on, first, the integration 
issue that is very important.
    Could I direct you back to I guess your first page of your 
written testimony, where you mention the five core goals that 
Secretary Chertoff has.
    Mr. Jackson. Yes, sir.
    Mr. Cuellar. Could I ask you?and I am sure you have this 
already. If you could quickly give this copy to the committee--
for example, on the first goal, protect our nation from 
dangerous people, could you tell us who the department is 
working with, what other departments you are working with in 
coordination, and whether that is statutory coordination or 
that is more through a task force?
    If you can get that across?the federal agencies?and then at 
the same time, which state or local partnerships you have. And 
then just go one by one on each of those goals.
    And, instead of giving me a 10-page memo, could you just 
put that?
    Mr. Jackson. We would be happy to send you some written 
materials on it. Let me give you the punch-line story on this.
    The Department of Homeland Security's mission is not only 
to execute certain functions in the mission space and protect 
the homeland, such as a border patrol guard working or a Coast 
Guard officer standing duty, but it is also to be the architect 
of the strategy for all of the federal assets, to be able to 
tell the president here is how all the tools in your immediate 
toolkit are aligned to work on a given problem, whether it is a 
response to a Katrina type of incident or an ongoing 
interdiction issue like we have at the border.
    In this regard, there is not a single department nor a 
single major agency in the government that we do not have a 
steady, ongoing relationship with.
    In the Defense Department, we literally have them--troops 
from NORTHCOM in our FEMA regional offices to help us do 
deliberate planning. They have sent people to do planning for 
major disasters in our exercise program work.
    We have what we call an exchange of hostages with NORTHCOM 
so that at NORTHCOM's command headquarters in Colorado some of 
our people are there and their people are in our headquarters.
    So you take that model. It works across the intelligence 
community, with the State Department. We have a very, very 
close and intensive relationships with transportation, with 
energy, with HUD, with labor, with commerce, with treasury. 
There really is?and our job is not just to look at your mission 
plate but then help understand the rest of the mission plate of 
the federal government.
    Then you take that to the state and local level. It is the 
same story over. So we embed people in state fusion centers 
from the intelligence organization at DHS to help make sure 
that we are pushing and pulling data back and forth.
    We have law enforcement agreements with the sheriffs along 
the border states to share responsibilities and assets and to 
fund some of their work and our support. We have various teams.
    I would be happy to get a little group of stuff together 
and get that out for you.
    Mr. Cuellar. Yes, if you can put that on some sort of graph 
so I can see, and any?
    Mr. Jackson. Absolutely.
    Mr. Cuellar. --supporting documentation.
    Mr. Jackson. It is a very robust set of interconnected 
dependencies.
    Mr. Cuellar. Right, because that is what I want to see. I 
want to see the horizontal and the vertical integration and 
coordination, number one.
    Mr. Jackson. Yes, sir.
    Mr. Cuellar. Number two, let me ask you about port 
security. Usually when people think about port security, they 
will think about airports and seaports. As you know, I come 
from a land port. Let me just give you just my hometown, for 
example.
    Laredo is the largest inland port. In fact, when you look 
at the trade between--it goes through Laredo as the largest 
inland port in North America.
    Sixty percent of all the NAFTA trade between the U.S. and 
Mexico and Canada comes through Laredo, so you can imagine what 
would happen if one of those bridges would be damaged and what 
sort of economic impact.
    Could you, as an example--in Laredo, for example, in 2006, 
we had 1.5 million trucks that came in through Laredo in 1 
year. And this is just northbound. It doesn't talk about 
southbound.
    You would be closer to 4 million trucks a year that would 
come in through those ports. What sort of port security do you 
have?and I have been there, and I have seen them, and Secretary 
Chertoff will be there, I believe, next Wednesday in Laredo.
    But could you tell us the same type of, you know, measures, 
whether it is the secure trade, or what you are doing that 
applies the same thing as land port? Because I want to make 
sure we don't forget about land ports.
    Mr. Jackson. Yes, sir. You are right. A week ago Monday at 
6:30 in the morning, I was standing at the port of entry in 
Laredo to walk through the daily operations and to look at some 
of the technology investments that we will be making there with 
WHTI.
    I would tell you that we have some investments on screening 
tools?the radiation screening. We have screening tools for 
buses in Laredo. There is a very large bus population.
    Mr. Cuellar. A hundred buses a day?
    Mr. Jackson. Right.
    Mr. Cuellar. --which about 40 people--I mean, at least over 
40 people on each bus, 100 buses a day that come in through 
there.
    And again, if you look at--and I know my time is up, Mr. 
Chairman, but if you look at the pedestrians walking by 
northbound--in 2006, there was 4.2 million private vehicles. 
You are talking about 14 million--1.5 trucks coming in.
    It is a huge, huge--and my thing is when you got large 
volumes, I just want to make sure the committee understands 
when we talk about ports, it is seaports, it is airports, but 
the land ports--I mean, 60 percent of all the trade between the 
U.S. and Mexico comes in through one port in Laredo, and 
hopefully some time the committee will go by there.
    But I know my time is up. I want to thank you. But if you 
can get me that visual presentation of the horizontal and 
vertical integration and coordination, I would appreciate it.
    Mr. Jackson. I would be happy to, yes, sir.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from Florida, Ms. Brown-
Waite, for 5 minutes.
    Ms. Brown-Waite. I thank the chairman very much.
    I have just two questions, and one of them is a follow up 
on the TWIC card. I understand that they are not going to be 
available until August of 2008. Is that correct?
    Mr. Jackson. No, ma'am. We are starting to issue TWIC cards 
next month.
    Ms. Brown-Waite. And it is for visual checks only?
    Mr. Jackson. Not exclusively, no, ma'am. Initially, the 
cards can be used in several ways. One is a visual check, but 
also there are--the cards have technologies--bar codes and 
other type of technologies--that are able to be integrated to 
existing entry and exit equipment that are used in ports around 
the country. That is one.
    And another is that the Coast Guard, once the TWIC card 
becomes mandatory for a given port, will be doing random 
inspections with portable scanners which will be able to 
validate the biometric data that is on the card and the 
eligibility of the individual to be in the area where they are 
being used.
    Later in 2008, I think is what you understand, there will 
be a separate rulemaking that will culminate in a requirement 
that the cards be used for entry and exit and that the 
facilities purchase the type of equipment that can use the 
biometric card to its full intended purpose.
    So we are in a two-stage process. The first part, the cards 
are issued. We are rolling that out serially around the 
country. And then this spring, later, we will start a 
rulemaking effort for the second half of this, which involves 
extensive consultation with industry about the type of 
equipment and its deployment and use.
    Ms. Brown-Waite. I just want to make sure I understand what 
you said. So the cards that are being distributed now have 
biometrics on them?
    Mr. Jackson. They will, yes, ma'am.
    Ms. Brown-Waite. No. The cards that are being 
distributed?they have biometrics. You say they will, like it is 
in the future. They do?
    Mr. Jackson. The cards are not currently being issued. They 
will shortly begin to be issued. We will roll out in three 
ports initially. L.A./Long Beach is a big one. We will use an 
East Coast port and a Gulf Coast port to try to make certain 
that we have the distribution method correct, that the cards 
are working appropriately, the distribution process is smooth.
    And then we will, port by port, go through along all of our 
coastline to distribute the cards. That will take the vast part 
of this year. And then there will be a second phase where the 
requirement is not only to have the card but to have a reader 
to use the card for entry and exit.
    Ms. Brown-Waite. So this card has biometrics contained in 
it.
    Mr. Jackson. Yes, ma'am.
    Ms. Brown-Waite. It is just a delay in the mandatory 
reader.
    Mr. Jackson. Exactly.
    Ms. Brown-Waite. Okay.
    Mr. Jackson. Right.
    Ms. Brown-Waite. Okay. I appreciate that. The other thing--
    Mr. Jackson. We will be using, as I said, the biometrics in 
a random basis by the Coast Guard to validate that once a given 
port has been determined to be its required deployment, then we 
will randomly validate the biometrics that are on the card with 
inspections.
    Ms. Brown-Waite. Okay. And as you probably know, there is a 
question with Florida that already went to the biometrics--
    Mr. Jackson. Yes, ma'am.
    Ms. Brown-Waite. --and I certainly hope that the department 
will continue to work with Florida because they certainly were 
ahead of the curve on this issue.
    One other thing. We often hear about the catch and release 
program. Have we really transitioned to a catch and return 
program?
    Mr. Jackson. Yes, ma'am. At the borders we have done 
exactly that. We are at the stage where we are able to hold any 
individual that needs to be held rather than release them into 
the community.
    That was not the case a year ago. We have made phenomenal 
progress there. That is for our efforts at the border, and I 
want to?there was a question at an earlier hearing for the 
secretary that I should just make sure that I am precise about.
    There are a very, very small number of incidents where we 
do not choose to incarcerate the person that is collected. For 
example, a pregnant woman who is in need of medical care that 
should go to a hospital, not to one of our facilities--we have 
the flexibility and do allow that type of release for medical 
purposes.
    Ms. Brown-Waite. Okay. There is no such thing as being a 
little bit pregnant. Are you talking about somebody who is 2 
months pregnant, 4 months pregnant, about to deliver?
    Mr. Jackson. Somebody that is about to deliver or has some 
medical crisis associated with that that can't be dealt with in 
the facility.
    What I am saying is I want to be very clear that we are 
catching and retaining all of the individuals that we find at 
the border, but there are a very rare but, I think, appropriate 
exceptions where we actually can release them for appropriate 
treatment, such as medical treatment.
    Ms. Brown-Waite. I don't think you answered my question.
    Mr. Jackson. Yes, ma'am. I will try.
    Ms. Brown-Waite. A 3-months pregnant woman--is she 
returned--
    Mr. Jackson. Yes.
    Ms. Brown-Waite. --to the country that she came from?
    Mr. Jackson. Yes.
    Ms. Brown-Waite. Okay. Six months?
    Mr. Jackson. Yes. What I am saying is if that person 
happened to be in a medical crisis, then we--
    Ms. Brown-Waite. Okay.
    Mr. Jackson. --can deal with that crisis in a medical 
institution. But if they are ambulatory and able to be put in a 
facility and taken back to their country, that is the job, and 
that is exactly what happens all the time.
    Ms. Brown-Waite. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Jackson, thank you for coming again. I think we are 
going to make you an honorary member of the committee. We see 
you a lot. And we do appreciate it. We do appreciate it.
    Mr. Jackson. Thank you, sir.
    Mr. Carney. I just have a couple questions here. In 2003, 
the GAO designated the implementation and transformation of DHS 
as a high-risk area.
    And despite some of the progress--and we really appreciate 
that--the transformation of the 22 agencies into one department 
was listed on both the GAO's 2005 and 2007 high-risk list.
    To be removed from that list, DHS must first submit 
corrective action plan that defines the root causes, identifies 
problems, identifies prospective solutions, and provides for 
substantially completing the measures in the near future.
    When can we expect, because we haven't seen it yet, the 
2007 update or plan for this?
    Mr. Jackson. I have it in my hand. I read it last night. 
And I think that it is something that should be able to be 
given to the committee very, very soon.
    The plan here is comprehensive and complex. We don't expect 
to nail every single thing instantly overnight. But what is in 
our plan is a very, very detailed response to each of the 
specific items that were the categories of concern for the GAO.
    We are taking this very seriously. There are management 
concerns. There are operational concerns. There are H.R. 
concerns. And for each of them, there are a series of remedial 
actions that we think are appropriate.
    We have done a lot decked against these concerns which we 
have been working on, and there is much more to do, too. So I 
am happy to make sure that we share this with you and then go 
through in gruesome detail with you, as much as you can stand, 
the game plan ahead.
    But it is, I think, a solid plan and a multifaceted one. We 
have, again, to walk and chew gum here in a very determined 
way.
    Mr. Carney. Well, I believe I speak for every member of the 
committee when we say we are looking forward to that plan.
    Mr. Jackson. Good.
    Mr. Carney. The next question has to do with MaxHR. We keep 
coming back to this. We spoke with you a few weeks ago, and you 
said that MaxHR is dead. That is a quote, dead.
    Mr. Jackson. The brand is dead. There are parts of what we 
were doing in MaxHR that we will move forward with very 
aggressively, but taken as its collective plan that was the 
subject of court challenge, we have put a nail in that coffin, 
and we are unpacking the things that need to go forward in a 
more, I think, short-term and aggressive fashion.
    I can talk a little bit about some of the major components 
of what that would look like if that is of use to you.
    Mr. Carney. Well, it is, because yesterday Charlie Allen 
was here. We had a good conversation with Mr. Allen. And he 
said that INA was about to move ahead with MaxHR.
    Mr. Jackson. So Charlie Allen is the one person in the 
department that is going to move on pay for performance as a 
pilot. The intel community across the U.S. government is trying 
to do a pilot to experiment with that.
    What we are going to do at the department, if you leave 
Charlie aside, is to work very aggressively on our performance 
management plan. This is the heart and soul of getting our arms 
around the management process with employee work.
    So we are going to put our focus there. We are looking at 
categorization of employees across the department to get 
greater harmony there. The pay for performance part of it is 
going to be explored on a pilot basis by the intel shop. But 
that is where we are with the department right now.
    Mr. Carney. So MaxHR is only mostly dead.
    Mr. Jackson. No, I am going to say--here is what I meant 
with this. You know, the brand got a little bit of bad rep, 
even inside my department, because we said it is going to be 
performance management, it is going to be pay categorization, 
it is going to be pay for performance--which was the source of 
a lot of anxiety among many of our employees.
    And as a result, we started training on the first part 
while the second and third parts were locked up in litigation. 
That status existed for over a year in the department. It 
caused people not to understand and to be supportive of the 
MaxHR program.
    So what we are trying to do is say there were many good 
things in this, especially starting at the fundamentals with 
the performance management. But our own people need to be 
communicated with and to help to understand exactly what are we 
doing, where is it going, how are we going to get there, what 
is their role, and how does this make their life better, which 
I think it will.
    So we are trying to say we are going to take a little bit 
of a fresh start in the post-litigation era. We are going to be 
meeting with our labor union colleagues in this.
    We are going to be sitting down and saying how can we start 
with this so that everybody really understands what the core of 
our commitment looks like and when we are going to accomplish 
what.
    Mr. Carney. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for this hearing.
    Thank you, Deputy Secretary.
    I am just going to focus in on two aspects of the work of 
the Department of Homeland Security, and I would like to join 
with Representative Carney and Bilirakis in their resolution, 
and again thank all of them for their service?and try to focus 
in a way that we can work collaboratively together.
    Some years ago, Congresswoman Lofgren and myself worked on 
issues dealing with unaccompanied minors, but we also focused 
on the treatment of families.
    And as you well know, your facility in Texas, the Hutto 
facility, has been under scrutiny. And I think one of the 
Achilles heels is the way ICE has responded.
    We recognize that their task is basically law enforcement. 
And therefore members of Congress wanted to be sensitive to 
that focus but also provide assistance to them on how some of 
the issues could be addressed.
    The issues are, first of all, that the facility is really 
not a facility that is family friendly for those who are not in 
the criminal system but in the civilian system. Children are 
separated and categorized as unaccompanied minors. Families are 
separated. It is prison-like.
    Rather than working with members of Congress and maybe even 
working with the higher echelons of the department, they 
decided to have an open house for the press which really, I 
think, blew up in their face, because they had not corrected 
some of the concerns that we had.
    I had asked repeatedly for a briefing for members of 
Congress where you are seeing the ills, but maybe you would 
come out of it saying I see the ills, I see where there are 
missteps, we are going to try and work with the department to 
try to fix some of those missteps.
    They didn't do it that way. So they had an open house for 
the press. And if you survey the national press, you will see 
that the stories were very, very uncomplimentary.
    In addition, their attitude is an open house. This is not a 
school PTO meeting where you have an open house for the 
parents.
    It is a constructive effort to try and address questions 
that go contrary to the intentions of Congress when they define 
unaccompanied minors, how they should be treated and how 
families should be treated. That is the first issue.
    The second issue is to address the question of equipment 
for our border patrol agents if we double them. Last year, this 
Congress--Chairman Thompson and now Chairwoman Loretta 
Sanchez--joined me in amendments to try and put in for 
materials like power boats and a long list of items that really 
were defeated at this committee.
    It got in, but it did not ultimately pass through the bills 
that we passed out of the Congress. Senator Kerry put it in. It 
did not pass.
    I would hope the DHS would join us in our effort again to 
ensure that those specific items--the power boats, the laptops, 
the night goggles?because those of us who have been on the 
border at night recognize the difficulty of these border patrol 
agents and the lack of equipment and lack of training.
    I yield to you on first the Hutto situation and then this 
particular equipment. And thank you.
    Mr. Jackson. Yes, ma'am. Thank you for both of those.
    On the Hutto issues, but on the housing issues more 
broadly, I am and the secretary is and Julie Myers, we are all 
committed to working with the Congress here to make sure that 
you have a great degree of visibility into those operations, 
that we have transparency about how we are operating them.
    I think we are benefitted by having as many eyes upon this 
so that we can--we have to have the capacity to house these 
people and to manage the migration problem in the right way. 
But we have to have the confidence of the American public that 
we are doing it in a humane and effective way.
    I believe we have a very strong story to tell. I will not 
try to tell you that there has not been a hiccup, a mistake, an 
imperfection. I will tell you that in some of the media stories 
about this, there are just simply big falsehoods in what is 
being reported about the treatment, the clothing, the access to 
education, et cetera.
    So we need to get up here and make sure we are doing the 
right thing and listening to your counsel as well, and I am 
committed to do that.
    Ms. Jackson Lee. I appreciate it.
    Mr. Jackson. We would welcome a hearing and other venues, 
informal, to talk through these issues. I will just tell you, 
as the first line, put just a little caution mark in the back 
of your head.
    I have some pictures that I brought along that I could show 
you after the hearing, if you would like, that shows you some 
of these facilities.
    In a funny way, the department got a complaint from one 
local elected official adjacent to one of our facilities that 
said the kids were getting a better education and more modern 
technology than the ones in his school district--provoked a 
local brouhaha.
    So I think we are trying to make an earnest effort, and we 
want a lot of eyes on it to make sure we are doing the right 
thing.
    On the second issue, I would just simply say yes, that if 
we put 6,000 new border patrol officers out there and they 
don't have the equipment and the tools to succeed, then that 
will have been a folly.
    We are committed to working through those type of issues to 
give them the infrastructure and the tools they need to 
succeed. It is only common sense, and we will be very focused 
on that.
    Ms. Jackson Lee. Mr. Chairman, let me thank you.
    And I thank Secretary Jackson.
    I hope maybe we will have a hearing. I think the idea is 
that we don't want to show and tell, like if they were to speak 
to some of those detainees and understand how the system 
works?and we certainly are looking for a collaborative effort 
to make sure that it meets the standards which that facility is 
supposed to meet.
    And so I look forward to working with you. I have to 
depart, but I will look forward to working with you. Thank you.
    Mr. Jackson. Okay. I will just say that if you are in 
Houston and can get a little bit time away and would like a 
personal tour of some of these facilities in Texas, then I am 
eager to try to make sure that you get that opportunity so that 
you can see firsthand what we are doing.
    Ms. Jackson Lee. I am trying to work on that, so I will 
work with you. Thank you.
    Mr. Jackson. We will get you there.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Jackson. Hello, sir. How are you?
    Mr. Langevin. I would like to turn my attention to the 
areas where I think we need particular attention, and that is 
on the area of our nuclear detection equipment as well as 
Project BioWatch, since in many ways they, along with good 
intelligence, are going to be our first line of defense.
    I would like to talk briefly about the strategic deployment 
of our radiation detection technology. And I have raised this 
already on several fronts, but it concerns me that we still 
have not seen a strategic plan for deploying our radiation 
portable monitors at our 22 busiest seaports.
    Congress was supposed to see this strategy within 3 months 
of this bill's enactment, and that deadline passed over a month 
ago.
    When I questioned Secretary Chertoff about the status of 
the strategy last week, he told me that the department is 
focusing more of their energy on actual deployment of this 
important technology than on the strategy.
    And certainly while I am happy that you are placing an 
emphasis on deployment and getting it out there into the field 
as quickly as possible, I am still concerned that the strategy 
is a month late.
    So the fact that the mere strategy is late worries me that 
in terms of when we can expect to see the actual technology 
deployed itself. So my question on this is when do you plan to 
provide Congress with this comprehensive deployment strategy?
    And can you please also give me a brief outline to date on 
your progress on deploying radiation portable monitors in 
compliance with the Safe Ports Act?
    And lastly, can you assure us that these radiation portable 
monitors will be fully deployed by December 31st of this year?
    Mr. Jackson. Yes, sir. I will check on the report this 
afternoon. It was not on my radar screen as overdue, and my 
apologies for that. I will look into where it is.
    I will tell you that in terms of strategic planning, as 
opposed to a report that captures all this, there has been a 
very, very considerable amount of work in this area in the 
department, and some very disciplined work through DNDO.
    The acquisition strategy and the coordination with CBP is 
intense. It was the first investment review board that I 
chaired as the deputy secretary when I first got to the 
department.
    So on getting the report, roger for that one.
    On the deployment, we are on track to put the radiation 
portable monitors across the country's seaports by the end of 
this year, to reach our 98 percent goal. I don't know if I have 
a colleague who knows this number, but I think we are in the 
80s of penetration now with the deployment plan.
    In L.A./Long Beach, for example, as we were talking about 
with Congresswoman Harman, they are now at 100 percent 
inspection in L.A./Long Beach, this very large port.
    So we are taking subsets of the traffic and as we can get 
it to be 100 percent coverage, we are doing it. I personally 
have seen and watched that process work there.
    A key part of this strategy, on the domestic and 
international side, is the next generation of radiation 
specific monitors. That is a very large procurement, multiple 
hundreds of millions of dollars investment.
    There has been an investment strategy that has been shared 
with Congress on this issue as part of our DNDO operation. I 
would be happy to make sure that we get you those documents as 
well.
    I think that next generation will be transformationally 
helpful for us, and we are planning to roll those out as we 
begin that production.
    On the overseas investment that the Safe Ports Act calls 
for, we beat the deadline on that one of striking a deal with 
multiple countries to work on this. Next month we will be 
seeing the first parts of that come online as our pilots are 
started.
    We are working very closely with the Energy Department on 
the technologies for that, and we will, I think, be reporting 
back to you regularly. There is an institutional and network 
amount of work that has to get done on the overseas part of it.
    But we agreed with Congress that this idea of pushing the 
borders out and using radiation portable monitors overseas was 
a valuable one, and I am very pleased to report that we are 
doing well there.
    I think I might have been handed a number that says we have 
91 percent of our land border cargo and 84 percent of 
containerized seaborne cargo operating and we will meet this 98 
percent goal.
    By the way, about the 2 percent left, we will do random 
work in there in various ways to address that as well.
    So I think a good deployment, very intense coordination 
among the DHS agencies, also with Energy Department for the 
overseas part of it, and good support from at least an initial 
cadre of countries where we are going to work. So that is the 
short story.
    On BioWatch--
    Mr. Langevin. I didn't get to my question, but if you would 
give me an update on BioWatch--
    Mr. Jackson. Yes, a quick update on that one is that we are 
in the same boat--we are straddling the first generation tools 
or the second generation tool with a looming third generation 
tool.
    The tool that we have right now in multiple cities around 
the country is an effective tool, but it is not an automated 
tool. We have to take the filters out. We have to send them to 
a lab. We have to look for the results that way.
    The next generation will be a wholly automated system that 
electronically does the analysis in a self-contained unit. It 
is much less labor-intensive. Hopefully it will be lower cost 
and higher performance and higher efficiency for us.
    And they will then wirelessly transmit the result of these 
so that we have a more real time and robust network of these 
sensors. So that is a major technology investment regime for 
us, for the department to move to that third generation so-
called technology platform there.
    We get a lot of work here. I think the program has gone 
well. It has reached a stage of maturity that we are moving it 
out of the science and technology directorate and moving it 
into the chief medical officer's organization to run on an 
operational basis. It will help us manage the contracting and 
the operations in a more efficient fashion.
    So it has moved from a research tool birthed by S&T to an 
operational tool managed by the chief medical officer. The next 
generation is going to make that same leap when we are ready.
    Mr. Langevin. On both of these issues, the radiation 
portable monitors and BioWatch, the sooner we can get these 
things fielded and operational, the better we are all going to 
feel.
    The other thing is, just in closing, I know my time has 
expired, but I am traveling next week during the district break 
to L.A./Long Beach, to the port, to personally see?I want to 
see the portable monitors in action.
    Mr. Jackson. Good. Well, I hope you are letting us connect 
you with our port director there so that we can give you the 
detailed technical briefings on that. We would be happy to do 
it.
    I saw it 1 week ago myself, and did a little exercise of an 
embedded radioactive material, safely embedded medical 
radioactive isotopes, so that we could watch how the process 
worked there for a resolution of a real hit and to look at the 
science of it.
    And I think they are doing a good job. This is a very large 
operation.
    Mr. Langevin. Well, I am looking forward to seeing it.
    Mr. Jackson. Good.
    Mr. Langevin. Thank you.
    Mr. Jackson. Thanks.
    Mr. Langevin. Thank you.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. This is a most 
important hearing, and I am very much grateful that you have 
convened it.
    I would also like to thank Mr. Jackson, Mr. Deputy 
Secretary Jackson, for your attendance today. And I also want 
to apologize because immediately after I pose my question and 
receive some answer I will have to leave.
    Mr. Jackson. Yes, sir.
    Mr. Green. I am on another committee, Financial Services, 
and we are having a hearing right now as I speak.
    Mr. Deputy Secretary, I know that we have talked about 
Katrina quite a bit. But I am forced to continue to make this a 
priority, because of the thousands, a rough guesstimate of 
approximately 20,000 persons, who have resettled in my district 
in Houston, Texas.
    And these persons, Mr. Deputy Secretary, have not been able 
to secure the housing that you and I would hope that they would 
receive. There seems to be a movement of deadlines to 
extensions, but not timelines to opportunities.
    And at some point, we need to sit and think of how we will 
manage the thousands of people who came to our city who are 
literally living in a foreign area, an area alien to them. 
Houston is a paradise, but it is very difficult to be a 
stranger in paradise. It really is.
    And while I do believe that the overwhelming majority are 
doing as best as they can to fend for themselves and find their 
way, they are still locked out or left out. And we have to do 
more than have time lines and extensions.
    So my question is, how will your reformation, if you will, 
have a positive impact on these thousands of people who are 
still looking for a means by which they can relocate to their 
home city, most of them of New Orleans, and also how they will 
simply resettle where they are if they choose to?
    There is much aid that is needed and little assistance that 
is being received.
    Mr. Jackson. Yes, sir. Well, I have to start by saying I am 
a native Houstonian, and I believe that there was no city in 
America who exceeded Houston's open arms to the Katrina victims 
and has continuously tried to keep those arms open and to make 
that community a welcoming community.
    So I have met with many officials. I am happy to be engaged 
with you on this topic as well. I met recently with Mayor White 
here in town to talk through the next stages.
    I think if I step back, the big picture here is that some 
of these people, as you say, are not going to go back to New 
Orleans. They are going to forego jambalaya for real live 
barbecue, and they are going to settle in a new community in 
Houston.
    And so as we work with these individuals, what we have said 
in this next stage is that we need to find a way for them to be 
assimilated into the public support network that exists to help 
individuals. Some will get jobs.
    We have given 18 months' worth of support for housing 
assistance as needed. And many people have got on with their 
lives during that period and have been incorporated into the 
Houston community or gone home to Louisiana.
    So we are looking at how to better integrate over the 
longer haul our mission with a longer-term solution such as 
those that HUD provides in their core mission.
    The administration's proposal on Katrina lessons learned 
suggested that we, at some point, make a pass-off from DHS to 
another agency, to fund that agency appropriately, to staff 
that agency appropriately for the mission. So those are the 
conversations that we are having now.
    And we gave the extension of 6 months to give ourselves 
time to look also for a little bit longer solution.
    There will be individuals here who, because of infirmity or 
age or other issues, won't be able to come into the community, 
find a job and be independent. We understand that, and we have 
to try to triage the support services that we provide in an 
equitable and just way.
    Mr. Green. Quickly, let me add this. I supported the 
resolution, by the way, to support homeland security.
    Mr. Jackson. Thank you, sir.
    Mr. Green. And I was honored to do so.
    Mr. Jackson. Thank you, sir.
    Mr. Green. And I hope that that connotes a willingness to 
work with you. But I would caution us to understand that we 
live in a world where it is not enough for things to be right. 
They must also look right.
    And it doesn't look right for us to continue to go from 
deadline to extensions. At some point, it may be prudent--it 
may be judicious--for us to publish what you have just said, 
that you are looking at a means by which we can help the 
infirm, we can help those who are too young to fend for 
themselves.
    If we can just get that message out, I think it will serve 
our image well. Image isn't everything, but it can be important 
when you are trying to help people and help them to understand 
that you are extending the hand of friendship as opposed to a 
high-handed means of saying no.
    I would hope that at some point we might be able to do 
something in Houston, perhaps if you will come to Houston, and 
we can alert the people in Houston that help is on the way, 
because right now I don't think they perceive help as being on 
the way.
    They perceive themselves as being helpless. And I think 
that you and I working together--we can change this perception. 
I gladly welcome the opportunity to work with you.
    Mr. Jackson. Well, I embrace and am grateful for your 
willingness to help us work in this way, too. We want to do the 
right things, and we are eager to be there with you.
    Mr. Green. Thank you very much.
    And thank you, Mr. Chairman. I greatly appreciate it.
    Chairman Thompson. Thank you very much.
    I think Mr. Jackson has heard all of the committee's 
interest in Katrina and how it continues to be a major, major 
sore spot with a lot of us as to how we are working it.
    What I would like to do, Mr. Secretary, since we have you 
for a few more minutes--I want to talk a little bit about 
SBInet and give you what I have heard from the committee--some 
discomfort with the entire procurement, given the fact that it 
is solution-based, given the fact that there is a question of 
whether or not we actually have enough people to manage that 
procurement.
    My understanding is that we have about 30 people but a lot 
of them are contract people. Is that correct?
    Mr. Jackson. We have more than 30, but there is a mix of 
contract and employees. The contract people are not making 
procurement decisions or policy decisions, but they are there 
to help with the mechanical support for the contract 
administration.
    Our commitment is to try to reduce those numbers as we grow 
the strength of this relatively new operating office in--
    Chairman Thompson. Okay. Well, can you provide us with the 
detail as to how many of them are--
    Mr. Jackson. Yes, sir. Absolutely, Mr. Chairman.
    Chairman Thompson. --our people and how many are contract? 
And to some degree, give us an idea of, you know, what these 
people are doing on both sides.
    Mr. Jackson. Yes, sir. I will give you all the facts on 
that, and we will get that to the committee.
    I will tell you that there is a little bit of a 
misunderstanding about how we have used some of the contract 
people, and if I could just take your time for one part of 
this, at the beginning when we designed this program, we really 
looked for best practices, with lessons learned from Deep 
Water, lessons learned from Defense Department contracts and 
other large procurements around the federal government.
    We did use some outside contractors to help us look at best 
practices here. There is actually a sort of subset of firms who 
are experts not on the subject matter of the procurement like 
SBI but on the contractual structure, and so we hired some of 
those for counsel about how best to write our contract.
    That led to provisions in the SBInet contract that we 
thought were strengthened by virtue of this consultation with 
the contracting community.
    And so things like make buy decisions--we have the capacity 
to say that we are going to buy a particular component of 
SBInet outside of the Boeing contract. If Boeing provides the 
good value of an integrator in a particular area, then we are 
happy to use their services in that regard, but we are in the 
driver's seat.
    And so on the operations of the contract, generally I would 
say that we have, in the government, a problem today--a 
personnel problem across the government. It is in staffing, 
procurement and program management jobs.
    One of the first things that Secretary Chertoff did when he 
came into this office was sit down with the inspector general 
and our chief procurement officer, who is a tremendous woman--
Elaine Duke, and her predecessor--and we said let's work on a 
plan to train, recruit and support the acquisitions people in 
the department more effectively.
    We have created for program managers, those operating 
managers, a council which our chief procurement officer and 
Greg Giddens, who happens to head this particular program, SBI, 
with NCDP, of all the program managers from the major operating 
components to share best practices, to exchange help when they 
need it, and to recruit and look about how do we go about 
strengthening it.
    So I will get you the facts about how we are deployed. What 
I would say is that as we strengthen and evolve, we will move 
to more full-time, permanent people from the government working 
these program management functions. And as this program 
proceeds, that is what you will see.
    Chairman Thompson. Thank you. And I appreciate that.
    In addition to that, given the size of this proposed 
procurement, we really need to see the subcontracting plan--
    Mr. Jackson. Yes.
    Chairman Thompson. --with respect to small-minority 
business opportunities. We continue to hear from that area that 
the outreach around this procurement is not as robust as it 
should be, and so I would like some response back from the 
department as to what we are doing.
    Mr. Jackson. Good. Well, you have my commitment that this 
is an area that we have looked at as a policy to make sure that 
we are getting diversity in the contracting team that is 
working SBI procurement.
    And there is a series of other procurement steps that we 
are taking across the department to make sure that that same 
diversity is evident in all of our programs.
    Chairman Thompson. And I guess within this SBInet 
management, of course, is there any portion of our southern 
borders specifically that we actually consider under control?
    Mr. Jackson. Yes, sir, there is. I can share with you the 
bimonthly report that we provide at the request of the 
Appropriations Committee--I think we have also shared it with 
your staff--that actually maps those miles.
    There are four categories of various levels of control and 
traffic that the border patrol has historically monitored, and 
we map each part of the southern border according to those 
criteria. And we have specific goals, time lines and targets 
for moving the number of miles controlled up over time.
    Chairman Thompson. Well, I look forward to getting that. It 
has been of some question, and if you will provide that for us, 
I would appreciate it.
    Mr. Jackson. Absolutely.
    Chairman Thompson. Lastly, let me encourage you to--we had 
a hearing yesterday with Admiral Cohen.
    Mr. Jackson. Yes.
    Chairman Thompson. Excellent meeting. We feel that you now 
have some direction in that shop that will get us where we need 
to be. I happened to talk to all the members who attended the 
hearing, and they felt very, very good about where he is moving 
his shop.
    And to whatever extent we can help move and continue the 
progress in that area, we look forward to working with you.
    I now yield to the gentleman from Houston, if he has any 
more questions.
    Mr. Green. Thank you, Mr. Chairman. I have no additional 
questions.
    Chairman Thompson. Thank you.
    I thank the deputy secretary for his valuable testimony and 
the other members for their questions. The members of the 
committee may have additional questions for you, and we will 
ask you to respond expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:10 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
